     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO

     Efficiency and Effectiveness of TSA's Visible
Intermodel Prevention and Response Program Within
             Rail and Mass Transit Systems
                       (Redacted)




OIG-12-103                              August 2012
August 15, 2012
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


Should you have any questions, please call me, or your staff may contact
Carlton I. Mann, Assistant Inspector General for Inspections, at (202) 254-4100, or
Marcia Moxey Hodges, Chief Inspector, at (202) 254-4202.

Enclosure
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1

Background ......................................................................................................................... 2

Results of Review .............................................................................................................. 12

           VIPR Program Improvements Have Enhanced Its Effectiveness .......................... 12
           Recommendations ................................................................................................ 16
           Management Comments and OIG Analysis .......................................................... 16

           Centralized Operational Guidance Is Needed To Clarify Law Enforcement
           Activities on VIPR Operations ............................................................................... 18
           Recommendation.................................................................................................. 28
           Management Comments and OIG Analysis .......................................................... 28

           TSA Has a Methodology To Select VIPR Deployments, But Additional
           Enhancements Are Needed .................................................................................. 28
           Recommendation.................................................................................................. 35
           Management Comments and OIG Analysis .......................................................... 35

           Organizational Placement Within TSA Hinders VIPR Program Effectiveness....... 35
           Recommendations ................................................................................................ 40
           Management Comments and OIG Analysis .......................................................... 40

           VIPR Team Resource Allocation Is Disproportionate............................................ 42
           Recommendations ................................................................................................ 50
           Management Comments and OIG Analysis .......................................................... 50

           Length of VIPR Team Member Assignments Hinders Program Effectiveness...... 51
           Recommendation.................................................................................................. 54
           Management Comments and OIG Analysis .......................................................... 54
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


     Transportation Security Inspector Roles and Responsibilities Are Performed
     Inconsistently ........................................................................................................ 55
     Recommendation.................................................................................................. 57
     Management Comments and OIG Analysis .......................................................... 58

     Canine Teams Add Value to VIPR Operations....................................................... 58
     Recommendation.................................................................................................. 60
     Management Comments and OIG Analysis .......................................................... 60

     Standardized VIPR Training and Team Participation in Joint Exercises Is
     Needed.................................................................................................................. 61
     Recommendations ................................................................................................ 64
     Management Comments and OIG Analysis .......................................................... 64

     Equipment Maintenance Enhances Effectiveness, and OSO Safety Gear May Be
     Necessary .............................................................................................................. 65
     Recommendations ................................................................................................ 67
     Management Comments and OIG Analysis .......................................................... 67

     Conclusion............................................................................................................. 68

Appendixes
     Appendix A: Purpose, Scope, and Methodology ................................................. 69
     Appendix B: Recommendations........................................................................... 72
     Appendix C: Management Comments to the Draft Report................................. 74
     Appendix D: Distribution of Priority Transportation Venues and Entities by
                  VIPR Team Areas of Responsibility................................................. 83
     Appendix E: Major Contributors to This Report .................................................. 84
     Appendix F: Report Distribution .......................................................................... 85

Abbreviations

     AFSDͲLE             Assistant Federal Security DirectorͲLaw Enforcement
     BDO                 Behavioral Detection Officer
     DNDO                Domestic Nuclear Detection Office
     DHS                 Department of Homeland Security
     DOP                 Deployment Operations Plan
            OFFICE OF INSPECTOR GENERAL
                Department of Homeland Security


FAMS    Federal Air Marshal Service
FSD     Federal Security Director
FY      fiscal year
JCC     Joint Coordination Center
OIG     Office of Inspector General
OLE     Office of Law Enforcement
OSO     Office of Security Operations
PRND    Preventative Radiological/Nuclear Detection
SAC     Supervisory Federal Air Marshal in Charge
SFAM    Supervisory Federal Air Marshal
TSA     Transportation Security Administration
TSI     Transportation Security Inspector
TSNM    Transportation Sector Network Management
TSO     Transportation Security Officer
TSSͲE   Transportation Security Specialist–Explosives
VIPR    Visible Intermodal Prevention and Response
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Aviation and Transportation Security Act, as amended, established the
   Transportation Security Administration (TSA) and tasked it with securing all modes of
   transportation. TSA’s authority to implement the Visible Intermodal Prevention and
   Response (VIPR) Program was codified in the Implementing Recommendations of the 9/11
   Commission Act of 2007, as amended, which authorized TSA to use any Department of
   Homeland Security (DHS) asset for VIPR teams.

   TSA deploys VIPR teams to augment local, State, and Federal entities’ efforts to enhance
   security on U.S. critical transportation infrastructure. VIPR teams screen passengers,
   look for suspicious behavior, and act as a visible deterrent for potential terrorist acts.
   VIPR teams often include Federal Air Marshals, Transportation Security Officers, Surface
   Transportation Security Inspectors, canine detection teams, explosives detection
   specialists, Behavior Detection Officers, and Federal, State, and local law enforcement
   officers.

   We assessed TSA efforts to deploy VIPR teams to augment security in rail and mass
   transit systems as part of our Fiscal Year 2011 Annual Performance Plan. Specifically, we
   reviewed whether TSA has a methodology to select VIPR deployments; whether
   geographic location and critical infrastructure affect the conduct of VIPR team
   operations; and whether VIPR teams are efficient and effective in augmenting local,
   State, and Federal efforts to enhance security on rail and mass transit systems.

   TSA has improved the VIPR Program since its inception; however, organizational,
   programmatic, and operational challenges remain. We are making 16
   recommendations to improve the efficiency and effectiveness of TSA’s VIPR Program.
   TSA concurred with 12 recommendations and did not concur with 4 recommendations.




www.oig.dhs.gov                                1                                      OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    Background
    TSA’s mission is to protect “the Nation’s transportation systems to ensure freedom of
    movement for people and commerce,” and it works closely with transportation, law
    enforcement, and intelligence community partners and stakeholders to accomplish this
    task. 1 From 1995 to 2005, more than 250 terrorist attacks occurred worldwide against
    passenger rail and bus system infrastructure, resulting in approximately 900 deaths and
    more than 6,000 injuries. After the July 2005 terrorist attacks on subway and bus
    systems in London, England, and the July 2006 attacks on the rail system in Mumbai,
    India, TSA further recognized the vulnerabilities of mass transit and enhanced its efforts
    to protect the Nation’s public transportation systems. 2

    VIPR Program Authorities and Intent

    The Aviation and Transportation Security Act, as amended, established and assigned TSA
    the authority and responsibility for security in all modes of transportation. 3 Congress
    further clarified TSA’s authorities in augmenting the security of any mode of
    transportation in the United States with the Implementing Recommendations of the
    Implementing Recommendations of the 9/11 Commission Act of 2007 (9/11 Act). 4 The
    9/11 Act authorized TSA to form VIPR teams, which can include any DHS asset, such as
    Federal Air Marshals (FAMs), Surface Transportation Security Inspectors (TSIs), explosive
    detection canine teams, and screening technologies. The 9/11 Act also directed TSA to
    collaborate with local security and law enforcement officials to deploy VIPR teams
    appropriately.

    The VIPR Program is one component of TSA’s multilayered defensive approach to
    transportation security, and it is intended to augment the security of any mode of
    transportation at any location within the United States. VIPR operations are targeted
    and customized deployments of Department personnel and assets with varying
    capabilities to “provide a visible presence to detect, deter, disrupt, and defeat


    1
    TSA: Mission, Vision, and Core Values. www.tsa.gov.
    2
    On July 7, 2005, terrorists detonated four bombs in London, England’s subway and bus systems that
  killed 52 and injured 700. On July 11, 2006, seven bombs were detonated throughout Mumbai, India’s
   suburban railway system, killing 209 and injuring 700.
  3
    Public Law 107Ͳ71, as amended (November 19, 2001).
  4
    Public Law 110Ͳ53, as amended (August 3, 2007).
www.oig.dhs.gov                                         2                                          OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    suspicious activity while instilling confidence in the traveling public.” 5 VIPR
    deployments also enhance TSA’s ability to respond quickly and effectively to incidents
    with transportation security partners and stakeholders. As VIPR teams become more
    familiar with transportation venues and operations, the teams augment transit
    agencies’ security and response plans and can supplement local and transit law
    enforcement’s response efforts.

            VIPR Program Management Structure

            TSA’s Office of Law Enforcement/Federal Air Marshals Service (OLE/FAMS) and
            Office of Security Operations (OSO) jointly implement the VIPR Program.
            According to the VIPR Program Concept of Operations, OLE/FAMS is the lead TSA
            office responsible for coordinating the overall program, developing guidelines,
            and reporting and compiling VIPR standard operating procedures. OSO provides
            direction to field management that aligns with VIPR policies and guidance.

            In August 2007, TSA established the Joint Coordination Center (JCC) at
            headquarters to monitor logistics, information sharing, and VIPR Program
            activities nationwide. As shown in figure 1, the JCC is managed by an OLE/FAMS
            VIPR Program Manager and is staffed by OLE/FAMS and OSO personnel, as well
            as personnel from other TSA supporting offices. The JCC is responsible for
            reviewing and managing all VIPR documentation and reporting from the field,
            establishing coordination and deployment guidelines for operations, and
            ensuring that all VIPR activities comply with guidance. The JCC is also
            responsible for ensuring effective information coordination among different TSA
            offices involved in the VIPR Program.




    5
    Draft Template of VIPR Mass Transit [Annual OpenͲEnded] Deployment Operations Plan, April 6, 2010.
www.oig.dhs.gov                                      3                                            OIG-12-103
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

            Figure 1: VIPR Program Organizational Chart 6




            Source: OIG analysis.

            Within areas of responsibility, the OLE/FAMS Supervisory Federal Air Marshal in
            Charge (SAC) and OSO Federal Security Director (FSD) oversee the VIPR Program
            and determine whether OLE/FAMS or OSO will manage the program in the field.
            SACs and FSDs delegate VIPR Program implementation to Assistant SACs and
            Assistant FSDs, and Supervisory FAMs (SFAM) and Supervisory TSIs can function
            as primary VIPR team leaders.

            VIPR Team Composition and Geographic Distribution

            VIPR team operations use different TSA disciplines, including law enforcement,
            surface transportation inspection, passenger screening, behavior detection, and
            explosives detection and appraisal. Through coordination with local
    6
    The Office of Transportation Sector Network Management identifies highͲrisk transportation
  infrastructure and provides this information to the VIPR Program.
www.oig.dhs.gov                                        4                                         OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            transportation security and law enforcement, VIPR team composition can be
            tailored to partner and stakeholder operational needs.

            FAMs are TSA’s law enforcement officers, authorized to enforce Federal laws in
            support of transportation security. TSIs inspect transportation venues for
            compliance with existing security standards and directives. Surface TSIs
            specialize in mass transit, passenger, and freight rail systems. Behavior
            Detection Officers (BDOs) are trained to use TSA’s Screening Passengers by
            Observation Techniques to identify suspicious behaviors in transportation
            venues and refer suspicious individuals to law enforcement. 7 Transportation
            Security Officers (TSOs) are trained and certified to perform physical screening
            and inspection of accessible property within specified TSA protocols.
            Transportation Security SpecialistsͲExplosives (TSSͲEs) are subject matter experts
            in explosives, including improvised explosive devices and chemical, biological,
            radiological, and nuclear threats. 8

            Although most of these disciplines have been applied primarily within the
            aviation environment, they can be used in any transportation mode, including
            mass transit and passenger rail. In addition, other DHS components, such as U.S.
            Coast Guard, U.S. Secret Service, and the National Protection and Programs
            Directorate, may participate in VIPR operations. Figure 2 shows a multidiscipline
            VIPR team deploying for an operation.




    7
    Screening Passengers by Observation Techniques is a method of identifying persons who may pose a
  potential security risk by assigning numerical values to behavioral and appearance indicators.
  8
    During our fieldwork, TSA’s organizational realignment created a new Security Capabilities Office that
  incorporates existing Screening Passengers by Observation Techniques and TSSͲE headquarters program
  management functions. However, BDOs and TSSͲEs will continue to report to FSDs.
www.oig.dhs.gov                                         5                                             OIG-12-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           Figure 2: VIPR Team Deploying for an Operation




           Source: Stakeholder monthly newsletter.

           In fiscal year (FY) 2008, TSA received $20 million to establish and operate 10
           multimodal VIPR teams. These teams are authorized to perform VIPR operations
           in all modes of transportation and were assigned to cities where both OLE/FAMS
           and OSO FSD offices are located. In 2010, Congress provided $25 million for TSA
           to expand the program by establishing 15 additional VIPR teams to work
           primarily within surface transportation. These teams were assigned to cities
           where the remaining OLE/FAMS field offices were located. According to TSA
           officials, in 2012, TSA received approximately $12 million in lapsed funding for 12
           additional multimodal VIPR teams. These teams are assigned to existing
           OLE/FAMS field offices with higher VIPR workloads. As of December 2011, TSA
           officials were determining the appropriate staffing for these additional teams,
           but anticipate that each will be operational by September 2012. As a result, TSA
           will have 37 operational VIPR teams across the Nation, as shown in figure 3.




www.oig.dhs.gov                                      6                                 OIG-12-103
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

            Figure 3: VIPR Team Geographic Distribution




            Source: OIG analysis.

            VIPR Program Support

            Within TSA, the Office of Transportation Sector Network Management (TSNM)
            identifies highͲrisk transportation infrastructure and provides this information to
            the VIPR Program. 9 The VIPR Program uses this information to provide field
            operations with guidance for prioritizing and scheduling deployments. TSNM
            also engages stakeholders, and assesses and assists in mitigating vulnerabilities,
            coordinating security plans, conducting regulatory evaluations, and promoting
            risk reduction to the Nation’s transportation systems.



    9
    During our fieldwork, TSA’s headquarters realignment transitioned TSNM to the Office of Security Policy
  and Industry Engagement.
www.oig.dhs.gov                                      7                                              OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           TSA’s Office of Chief Counsel provides legal services to TSA offices and
           personnel, and assists with developing policy and implementing TSA’s authorities
           and responsibilities. Office of Chief Counsel field attorneys work with VIPR staff
           in negotiating and drafting agreements with partners and stakeholders;
           reviewing operational documents, plans, procedures, and policies to ensure
           compliance with legal authorities; providing legal advice and guidance on searchͲ
           related and civil rights/civil liberties issues; and interpreting regulatory and
           statutory authorities.

           TSA’s Office of Intelligence and Analysis provides intelligenceͲbased risk analyses
           to TSA offices and personnel regarding transportation threats and vulnerabilities.
           Situational or current intelligence is made available to VIPR team members for
           operations. The Office of Intelligence and Analysis routinely forwards mass
           transit and passenger rail alerts to the VIPR Program.

           The National Explosives Detection Canine Team Program trains and certifies
           canines and handlers to detect explosive and chemical substances in all modes of
           transportation. This program provides canines for TSA’s security inspection
           functions and also provides canines to local and transportation law enforcement
           agencies. As of December 2011, 900 TSAͲauthorized canine teams were
           deployed across the country to support transportation security. Some canine
           teams participating in VIPR operations are provided by stakeholders upon
           request by OLE/FAMS field offices, and other teams are employed at airports
           under an FSD’s operational control.

           The Domestic Nuclear Detection Office (DNDO) was established to improve the
           Nation’s capability to detect and report unauthorized attempts to import,
           possess, store, develop, or transport nuclear or radiological materials. To assist
           in carrying out its mission, DNDO partners with TSA to provide FAMͲled VIPR
           teams with Preventative Radiological/Nuclear Detection (PRND) equipment.
           VIPR teams use PRND equipment to screen for radiological and nuclear materials
           when performing operations.

           VIPR Planning and Reporting

           VIPR teams submit all operational planning and reporting documents to the JCC
           through WebEOC. WebEOC is a webͲbased incident/event information
www.oig.dhs.gov                                 8                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           management system capable of managing multiple incidents and daily events,
           assigning and tracking missions and tasks, providing situational alerts,
           coordinating resources, and generating reports.

           All VIPR field activity begins with an annual Deployment Operations Plan (DOP)
           that is submitted, reviewed, and commented on, or concurred to by the JCC. A
           DOP includes a description of planned deployments in a transportation system
           and mode, addresses VIPR team composition and team member activities during
           deployments, deployment time and location, reason for venue selection, and
           how VIPR deployments will augment existing venue security. A DOP also
           identifies participating agency points of contact and operationͲspecific details
           such as firearms restrictions, arrest authorities, screening protocols, explosives
           disposal, and communications. A separate DOP is prepared for each partner and
           stakeholder that works with VIPR teams, and larger venues serving multiple
           partners and stakeholders may have a separate DOP.

           As of December 2011, the DOP was transitioning to a National Deployment
           Operations Plan, which will describe nationally approved VIPR activities in
           surface transportation. With this transition, the VIPR Program also anticipates
           replacing WebEOC with the VIPR Information Management System, which is
           expected to reduce administrative requirements and support analysis more
           effectively.

           In addition to the annual DOP, when a VIPR deployment is scheduled, an
           Operations Tracking Report is submitted to the JCC. This more specific report
           identifies the date, time, mode(s), and location(s) for the operations. An Activity
           Summary Report identifying personnel assigned to the deployment, as well as
           the proposed VIPR team and partner agency activities, is processed by the JCC
           and posted in WebEOC 2 to 3 days before a VIPR team is deployed. After an
           operation, significant changes to staffing, timing, or any significant events such
           as arrests, are submitted to the JCC in an AfterͲAction Report. This report
           provides VIPR Program management with an opportunity to analyze field
           activities, lessons learned, and best practices.




www.oig.dhs.gov                                 9                                      OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Partners, Stakeholders, and Venues

           The Nation’s public transportation systems are built, owned, maintained,
           operated, and funded through Federal, State, and local government and private
           sector partnerships. VIPR operations are conducted with various partners,
           stakeholders, and venues. VIPR teams deploy to commuter, light, and heavy rail
           and to bus, airport, highway, bridge, ferry, and pipeline systems. As figure 4
           shows, staffing and funding enhancements have increased VIPR operations in
           both aviation and surface venues. As of December 2011, VIPR teams were
           conducting 75 percent of operations in surface transportation and 25 percent in
           aviation.




www.oig.dhs.gov                               10                                    OIG-12-103
                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Figure 4: VIPR Funding and Operations




           Source: OIG analysis.

           We assessed TSA efforts to deploy VIPR teams to augment security in rail and
           mass transit systems as part of our Fiscal Year 2011 Annual Performance Plan.
           Specifically, we reviewed whether TSA has a methodology to select VIPR
           deployments; geographic location and critical infrastructure affect the conduct
           of VIPR team operations; and VIPR teams are efficient and effective in
           augmenting local, State, and Federal efforts to enhance security on rail and mass
           transit systems. This review is a followͲup to our report TSA’s Administration
           and Coordination of Mass Transit Security Programs (OIGͲ08Ͳ66), issued in June
           2008.


www.oig.dhs.gov                                    11                                 OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Review
   The VIPR Program has improved its ability to establish effective partner and stakeholder
   relationships. However, organizational, programmatic, and operational challenges
   remain. For example, the VIPR Program’s placement within TSA hinders its ability to
   ensure coordinated field activities. Guidance is needed to clarify law enforcement
   activities, team member roles and responsibilities, and equipment use during VIPR
   operations. Additionally, the VIPR deployment methodology needs refinement, and
   resources are not allocated proportionately to team workloads across the Nation.
   Teams do not receive standardized training, and the length of VIPR team member
   assignments affects program effectiveness. TSA can enhance program efficiency and
   effectiveness by addressing these challenges.

           VIPR Program Improvements Have Enhanced Its Effectiveness

           TSA continues to improve the VIPR Program through enhanced partner and
           stakeholder outreach and interaction, and the integration of OSO and OLE/FAMS
           assets on VIPR teams. However, greater public awareness and outreach are
           needed to enhance knowledge and acceptance of the program. In addition,
           capturing program data more accurately would reflect the VIPR Program’s value
           to DHS, partners, and stakeholders better.

           Enhanced Interaction Has Improved Perception and Engagement

           Transit agencies are not required to participate in VIPR operations. When
           partners and stakeholders are not receptive to participating in and interacting
           with the program, teams are unable to fulfill their mission to enhance the
           security of the Nation’s transportation infrastructure. As a result, developing a
           working and mutually beneficial relationship with partners and stakeholders is
           essential.

           Several partners and stakeholders said that initial VIPR Program exposure was
           unsatisfactory. Teams had not introduced and communicated the program’s
           intent or established credibility or the program’s usefulness to transit agencies.
           For example, one mass transit stakeholder described initial exposure to VIPR
           operations as uniformed teams appearing unannounced at train stations, which

www.oig.dhs.gov                                12                                      OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            created confusion as to who the teams were and what was their intended
            purpose.

            After initial deployments, partners and stakeholders describe VIPR Program
            engagement as regrouping and communicating better through more meaningful
            outreach to police departments, transit agencies, governing boards, and other
            entities. A stakeholder described the new outreach as thoughtfully done, as
            stakeholders are now engaged and included in discussions of potential
            operations within their systems. As a result, most partners and stakeholders said
            they value the program as a force multiplier and an extension of their security
            assets, and describe the teams as professional, willing to work and take advice,
            flexible, and responsive to partner and stakeholder needs. However, some
            partners and stakeholders remain hesitant to reengage with the program after
            their initial experiences.

            Partners and stakeholders said VIPR Program scheduling, planning, and the site
            selection process are continuously improving, especially when team members
            remain in assignments for extended periods. On some teams, one member is
            assigned to coordinate with specific transit agencies and another conducts
            scheduling, which provides agencies with a direct connection to the VIPR
            Program.

            More Effective Public Engagement Is Necessary

            Although the VIPR Program has improved its engagement with partners and
            stakeholders, it can further enhance knowledge and acceptance of the program
            through public outreach efforts. More effective VIPR Program promotion would
            raise awareness of TSA’s mission in all modes of transportation and convey TSA
            executive support for the program.

            In July 2010, DHS announced the If You See Something, Say Something™
            campaign to encourage the public to report suspicious activity. 10 The
            campaign’s purpose is to raise public situational awareness, supporting DHS
            Secretary Napolitano’s statement that “homeland security begins with
            hometown security.” In February 2011, Secretary Napolitano mentioned the

    10
     This slogan is trademarked by New York’s Metropolitan Transportation Authority.
www.oig.dhs.gov                                     13                                 OIG-12-103
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


             VIPR Program when discussing If You See Something, Say Something™ and the
             National Suspicious Activity Reporting Initiative, as an extra measure to help
             deter terrorist activity in the public transit environment. 11

             As a result of the If You See Something, Say Something™ campaign, DHS has
             developed partnerships with transit agencies and State and local law
             enforcement agencies, and the campaign has been promoted at large sporting
             events, such as the 2012 Super Bowl. Partners and stakeholders mentioned
             promoting the campaign by handing out If You See Something, Say Something™
             information to passengers during VIPR operations. Increasing public awareness
             and participation in identifying suspicious behavior enables the public to serve as
             a force multiplier to law enforcement officers.

             Introducing a similar campaign to promote the VIPR Program could enhance its
             mission to “instill confidence in the traveling public” while being visible during
             operations. 12 In addition to assisting with stakeholder relations, public
             promotion could further the traveling public’s awareness. Seeing VIPR teams,
             particularly FAMs in tactical gear, can cause some passengers to express
             emotions of anxiety and fear or security. Without prior knowledge about the
             team or its purpose, stakeholders initially received negative reactions and
             opinions from passengers encountering VIPR teams. Once passengers were
             more knowledgeable about the program and its intent, they typically viewed the
             teams favorably. For example, passengers have approached VIPR team
             members with questions regarding whether there was an immediate threat or
             security risk. Once the team explained its purpose of increasing security at
             transportation venues, passengers often responded positively to the team.




    11
     The Nationwide Suspicious Activity Reporting Initiative is an effort to involve State, local, and Federal
  partners in identifying, reporting, and analyzing suspicious activity reports.
  12
     VIPR National DOP – Surface Section 1.1.
www.oig.dhs.gov                                         14                                                OIG-12-103
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


             The VIPR Program May Not Measure Its Value Accurately

             The VIPR Program uses the following criteria to measure and track its
             performance:

             x   Number of VIPR team operations, including the number of operations in aviation
                 and surface

             x   Percentage of National Special Security Events and Special Event Assessment Rating
                 Events at which VIPR teams are deployed 13

             x   Completion of VIPR operations at sites that TSA has determined to be high risk
                 based on risk assessments, analyses, and studies conducted in each mode of
                 transportation

             x   Percentage of repeat VIPR deployments with primary stakeholders, capturing
                 continued working relationships with primary transportation stakeholders
             Although these criteria can measure the quantity and quality of services
             provided to transit partners and stakeholders, the usefulness of the
             measurement depends on data integrity. Field offices count and report VIPR
             operations differently depending on the number of VIPR teams, stakeholders,
             and venues. For example, when one team works with a stakeholder at multiple
             venues, some field offices report daily activities as one VIPR operation because
             the team worked with only one stakeholder. However, another field office may
             report the same activities as multiple VIPR operations, since visibility was
             provided at multiple venues.

             Although the number of venues and stakeholders affect how VIPR teams count,
             report, and record operations, the following factors also influence program data
             consistency and accuracy:
             x   How VIPR teams divide during an operation;

             x   Whether an operation incorporates both stationary screening and a roving
                 uniformed presence; and


    13
     National Special Security Events are events DHS identifies as nationally or internationally significant
  based on potential risk for a terrorist attack. Special Event Assessment Rating Events do not have the
   same level of risk as National Special Security Events.
www.oig.dhs.gov                                         15                                               OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           x      The number of planning documents submitted for each deployment.

           VIPR Program officials said that JCC analysts ensure that WebEOC data are
           reconciled when submitted. However, without defining how to count VIPR
           operations, field personnel will continue to report and count VIPR operations
           differently, which creates unnecessary work at the JCC. In addition, without a
           working definition for a VIPR operation, JCC analysts may not be able to count
           operations consistently and accurately. Defined criteria for counting and
           reporting VIPR operations and a method for confirming operation
           documentation will ensure that VIPR Program performance metrics reflect each
           VIPR operation accurately.

           Recommendations

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #1: Develop and implement a public awareness initiative to
           convey the VIPR Program’s intent.

           Recommendation #2: Clarify the definitions of VIPR operations and provide
           guidance to headquarters and the field about how to complete operational
           documentation to correctly report operations.

           Recommendation #3: Establish and implement a data reporting procedure that
           ensures information submitted to the Joint Coordination Center is updated and
           reflects each VIPR operation accurately.

           Management Comments and OIG Analysis

           We evaluated TSA’s written comments and have made changes to the report
           where we deemed appropriate. A summary of TSA’s written response to the
           report recommendations and our analysis of the response follows each
           recommendation. A copy of TSA’s response, in its entirety, is included as
           appendix C.



www.oig.dhs.gov                                   16                                OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In addition, we received technical comments from TSA and incorporated these
           comments into the report where appropriate. TSA concurred with 12
           recommendations and did not concur with 4 recommendations in the report.
           We appreciate TSA’s comments and contributions.

           Management Response to Recommendation #1: TSA officials concurred with
           Recommendation 1. In its response, TSA said that the VIPR Program is working
           with TSA’s Office of Strategic Communications and Public Affairs to develop a
           public affairs guidance document and define TSA’s participation in media
           exchanges. The Office of Strategic Communications and Public Affairs will also
           work with the Office of Security Policy and Industry Engagement to create a
           proactive initiative with stakeholders as a second part of the public awareness
           strategy. The third part of the strategy will include outreach and education
           initiatives with external stakeholders to ensure that personnel participating in
           VIPR operations have accurate and timely messaging.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 1,
           which is resolved and open. TSA describes planned public outreach efforts with
           stakeholders and partners. However, the intent of this recommendation is also
           to ensure uniform messaging to the public about the VIPR Program and team
           presence in various transportation venues. This recommendation will remain
           open pending our receipt of documentation that TSA has developed VIPR
           Program plans and disseminated materials for general public engagement and
           awareness.

           Management Response to Recommendation #2: TSA officials concurred with
           Recommendation 2. In its response, TSA said that JCC personnel are responsible
           for consistently and accurately handling operations data. TSA agreed that an
           understood definition for what constitutes a VIPR operation among all field
           personnel could enhance accounting for operations data.

           Further, for metric purposes the VIPR Program considers an operation to be “the
           deployment of VIPR personnel (TSA and nonͲTSA) at a venue in a specific mode
           for a defined period of time.” Recognizing variations in VIPR operations at the
           local level, the program does not mandate a minimum or maximum requirement
           for personnel or duration. Field personnel, working with stakeholders,
           determine whether a venue that contains multiple transportation modes and
www.oig.dhs.gov                                17                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           includes other transit stations is considered a single VIPR activity, or multiple
           VIPR activities requiring multiple Activity Summary Reports.

           The JCC recently updated and communicated guidance to VIPR field personnel
           about consistently and accurately completing Activity Summary Reports. In
           addition, the JCC will communicate the VIPR operation definition to field
           personnel.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 2,
           which is resolved and open. This recommendation will remain open pending our
           receipt of documentation, from headquarters to field offices, that clearly defines
           a VIPR operation and guidance to complete VIPR operation documentation
           accurately.

           Management Response to Recommendation #3: TSA officials concurred with
           Recommendation 3. In its response, TSA said the VIPR Information Management
           System design and development team coded the system to ensure consistent
           field reporting and VIPR program data analysis. The VIPR Information
           Management System is currently scheduled to be implemented in the first
           quarter of FY 2013.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 3,
           which is resolved and open. This recommendation will remain open pending our
           receipt of documentation that ensures consistent field reporting and information
           submitted to the JCC is updated and reflects VIPR operations accurately.

           Centralized Operational Guidance Is Needed To Clarify Law Enforcement
           Activities on VIPR Operations

           FAMs have specific authorities as Federal law enforcement officers in all modes
           of transportation. Although VIPR teams are visible deterrents to terrorism, in
           many cases FAMs are valued as force multipliers by local law enforcement
           agencies in mass transit environments. However, because of differences
           between the aviation and mass transit operating environments, implied and
           actual operating guidance in each environment, and perceived need for more
           guidance and support from management, FAMs on VIPR teams expressed having
           a higher confidence level working in aviation than in mass transit. These issues
www.oig.dhs.gov                                 18                                       OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            reduce VIPR Program effectiveness in certain locations. Stronger centralized
            guidance specifying the extent to which FAMs can support local law
            enforcement, which reflects the realities of VIPR operations in mass transit
            environments, is needed.

            FAMs Have Federal Law Enforcement Authority in All Transportation Modes,
            But Authorities Vary by State

            According to the Aviation and Transportation Security Act, TSA is responsible for
            security in all modes of transportation. 14 As TSA’s law enforcement officers, to
            the extent that they are acting in support of transportation security, FAMs are
            authorized to carry a firearm and make a warrantless arrest for any Federal
            offense committed in their presence, or for any Federal felony if the FAM has
            probable cause to believe that the person to be arrested has committed or is
            committing the felony. In addition, FAMs may seek and execute Federal
            warrants for arrest or seizure of evidence based on probable cause that a
            violation has been committed. The Aviation and Transportation Security Act also
            states that TSA must provide guidance to FAMs in exercising these authorities, in
            consultation with the U.S. Attorney General. 15

            Furthermore, as Federal law enforcement officers, FAMS are considered to be
            within the scope of their employment when taking reasonable action, including
            the use of force, to protect someone in their presence from a crime of violence;
            help someone suffering from or being threatened with bodily harm; or prevent
            the escape of someone whom FAMS believes committed a crime of violence in
            the FAMS’ presence. 16

            FAMs routinely exercise their law enforcement authority in the aviation and
            mass transit environments, as well as other transportation modes when
            conducting VIPR operations. As a policy matter, VIPR teams focus on
            transportation security matters; however, as a matter of law, under certain
            circumstances, FAMs are permitted to engage when they encounter criminal
            conduct. Specifically, FAMs may make a warrantless arrest for any Federal

    14
     49 USC 114(d).
    15
     49 USC 114(p).
  16
     This authority derives from the soͲcalled “Federal Good Samaritan Law.” 28 USC 2671 note.
www.oig.dhs.gov                                        19                                        OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            felony committed in their presence, or for any Federal felony if the FAM has
            probable cause. 17

            Federal Peace Officer Status Varies by State

            Although FAMs have authority to act on Federal offenses, their ability to support
            local partners and stakeholders fully in a law enforcement capacity depends on
            whether FAMs have “peace officer” status in a State. Each State defines peace
            officer status differently, but the status generally refers to the authority to
            perform State and local law enforcement functions in a specific jurisdiction.

            Federal law enforcement officers have peace officer status in some States. For
            example, in Colorado, Federal law enforcement officers authorized to use deadly
            force in performing their duties are granted peace officer status. 18 In Illinois,
            Federal employees authorized by statute to arrest individuals for Federal crimes
            are considered peace officers. Among other powers, FAMs can assist another
            Illinois peace officer in an arrest or act upon an offense under Illinois law being
            committed in their presence. 19

            In other States, Federal law enforcement officers from specific agencies are
            granted peace officer status. This definition may or may not include all DHS
            agencies, and Federal law enforcement officers’ peace officer powers may be
            limited to specific actions. For example, in New York, FAMs may use physical and
            deadly force in making an arrest or to prevent escape, and may seize weapons. 20
            However, even though they can perform warrantless arrests, they cannot do so
            solely based on probable cause that the individual has committed a felony
            outside of the officer’s presence, as they can under their Federal authorities. 21
            In other States, such as California, Massachusetts, and Ohio, FAMs do not have
            peace officer status and may not arrest or remove someone from the transit
            system for committing a nonͲFederal crime.


    17
     Federal Air Marshal Service Office of Training and Workforce Programs: VIPR Legal Lesson Plan,
  October 2009.
  18
     Colorado Revised Statutes §16Ͳ3Ͳ110(b) (2012): Peace officers – duties.
  19
     720 ILCS 5/2Ͳ13 (2012).
  20
     N.Y. C.P.L. Law §2.20 (2012): Powers of peace officers.
  21
     N.Y. C.P.L. Law §2.20 and §140.25 (2012): Arrest without a warrant; by peace officer.
www.oig.dhs.gov                                        20                                           OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Field Counsel and Local Law Enforcement Provide Some Operational Guidance

           As each operating area presents unique challenges, the Office of Chief Counsel at
           TSA headquarters as well as field counsel, review DOPs to ensure that teams are
           operating within their powers and local legal constraints, and that VIPR teams
           are supporting the State or city’s role, authorities, and responsibilities.

           Field counsel may provide opinions before operations or provide clarification
           when headquarters issues new guidance. Field counsel may also visit major
           deployment locations and observe a VIPR operation to provide guidance on
           potential legal issues. In addition, field counsel described talking to stakeholders
           involved in the VIPR operations to explain FAM authorities, and to explain that
           working with the VIPR team does not provide FAMs any special law enforcement
           powers.

           Regardless of FAM authorities, partners and stakeholders provide additional
           information regarding the activities they are comfortable with VIPR teams
           performing in their systems and the legal training they consider important for a
           successful partnership. One stakeholder who conducts vehicle searches during
           VIPR operations described concerns regarding evidence recovered during
           searches, which may be inadmissible as evidence in the State penal system when
           discovered by a FAM. As a result, this stakeholder considered it imperative that
           VIPR teams understand State and Federal search and seizure laws. Another
           stakeholder said that his agency would not allow VIPR teams to patrol trains in
           motion. Therefore, when conducting a multiͲstation operation with this
           stakeholder, the VIPR team travels between stations by car while the
           stakeholder’s law enforcement team patrols trains in motion.

           Partners, Stakeholders, and the Public Expect Law Enforcement Support From
           FAMs

           FAMs are law enforcement officers and partners, stakeholders, and the public
           expect that they will know how to respond, and will do so when faced with
           potential criminal activity. Teams deploy in mass transit environments where
           encountering criminal activity is common, and stakeholders expressed that VIPR
           teams are considered an augment and support to their security teams and a
           force multiplier. In 2007, TSA and representatives of the Transit Policing and
www.oig.dhs.gov                                 21                                      OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            Security Peer Advisory Group created mutually agreedͲupon operating guidelines
            for VIPR teams in mass transit and passenger rail. According to these guidelines,
            FAMs should defer to the transit agency or local jurisdiction’s police force, but
            are expected “to act as necessary in the interest of public safety or other
            exigency requiring prompt intervention.” 22

            Field counsel described FAMs as being in a delicate situation as law enforcement
            officers who are perceived as force multipliers, but who may not be able to
            intervene depending on State and local laws, as well as direction from TSA
            leadership. For example, a FAM who does not have peace officer status cannot
            legally intervene to remove publicly intoxicated individuals from a transit venue,
            even though the individuals may be a threat to other passengers or a danger to
            themselves, unless they committed an offense against the United States in the
            FAM’s presence, or the FAM has probable cause to believe that a felony is or has
            been committed. Even where FAMs have peace officer status, they are
            encouraged to not get involved in State or local offenses, and to refer offenders
            to local law enforcement. Should an incident occur, the public would perceive
            the FAMs as law enforcement officers who did not act to prevent or mitigate the
            incident.

            Headquarters program officials stressed that the VIPR Program is about
            counterterrorism, not about criminal behavior, and that VIPR FAMs are
            encouraged to focus on the counterterrorism mission and let partners and
            stakeholders focus on criminal aspects. However, a FAM VIPR team member
            expressed concern that the team already defers to local law enforcement for
            many incidents. When called upon to assist a stakeholder with criminal
            incidents, if FAMs continually cannot provide assistance, the stakeholder may no
            longer consider FAMs a law enforcement asset.

            FAMs Express Discomfort With Authorities in the Mass Transit Operating
            Environments

            Although FAM authorities as TSA law enforcement officers in aviation as well as
            mass transit stem from the same statutes, FAMs expressed having a greater

    22
     TSA and the Transit Policing and Security Peer Advisory Group, Effective Employment of Visible
  Intermodal Prevention and Response (VIPR) Teams in Mass Transit and Passenger Rail, October 30, 2007.
www.oig.dhs.gov                                       22                                            OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           comfort level and understanding of their authorities in aviation. This can be
           attributed to the differences between the aviation and mass transit operating
           environments; the differences in implied and actual guidance to operate in the
           aviation and mass transit modes; and conflicts between guidance and VIPR
           operational realities.

           Aviation and Mass Transit Are Different Operating Environments

           The authority within the contained environment of an aircraft is clear. The Pilot
           in Command is in charge, and FAMs on board work with the flight crew to ensure
           the safety of the aircraft. When there are other law enforcement officers on
           board, they defer to FAM law enforcement authority and support as needed. In
           addition, although an airport is not as contained as an aircraft, the majority of
           individuals enter airports for specific purposes and exhibit predictable behaviors.
           As a result, it may be easier to spot inconsistencies in behavior that warrant
           further scrutiny. Also, passengers entering an airport terminal to travel must
           submit to physical screening to access aircraft. When called upon by the local
           law enforcement or a security team responsible for airport security, FAMs would
           be perceived as acting within their authority to protect aviation security.

           By contrast, mass transit systems are expansive and porous, with stations that
           have multiple entrances and exits. Some work on the honor system and do not
           have turnstiles or any other fare collection chokepoint. The public enters these
           venues for a variety of purposes, including travel. Individuals entering mass
           transit venues are not screened, and the layout of many mass transit venues, as
           well as their passenger volume, makes physical screening a challenge. In
           addition, depending on the State and stakeholders, FAMs may or may not have
           the authority or permission to take certain law enforcement actions within mass
           transit venues.

           FAM Training and Law Enforcement Background Are Insufficient Guidance for
           FAMs in the Mass Transit Environment

           OLE/FAMS headquarters officials said that in deciding whether to intervene and
           exercise their law enforcement authorities, FAMs can rely on their experience as
           seasoned law enforcement officers. However, not all VIPR FAMs have a
           traditional law enforcement background, and many come from higher education
www.oig.dhs.gov                                23                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           or military backgrounds. Many FAMs seek VIPR experience because of the
           opportunity to gain traditional law enforcement experience and exposure. Field
           leadership suggested that the OLE/FAMS officials assume that FAMs are armed
           law enforcement and will know how to respond to a mass transit situation;
           however, field officials said, the real issues are not only whether FAMs know
           how to respond outside of aviation, but whether they are comfortable doing so.

           All FAM academy candidates receive extensive training in preparation for their
           mission as TSA law enforcement officers. In addition to their academy training,
           FAMs are required to complete 160 training hours per year. OLE/FAMS officials
           said that this training is considered guidance on how FAMs will exercise their law
           enforcement authorities in the aviation and mass transit environments.
           However, even though some training materials are applicable to both flying and
           VIPR missions, they may not be sufficient to afford FAMs the skills and
           information to perform successfully in the mass transit environment.

           Some FAM training was created specifically for the VIPR mission, such as VIPR
           Legal, which covers FAMs’ broad authorities as law enforcement in
           transportation modes, including the mass transit environment. Some FAMs have
           expressed interest in training that would explore the nuances of peace officer
           status and specific law enforcement authorities. However, TSA headquarters
           officials said that it is impossible to create training that would cover all the
           specific operating environments within mass transit. As a result, field offices are
           expected to develop their own understanding of safety and procedural issues in
           their venues.

           Delegating this guidance to the field creates a perception that possible blame for
           missteps will fall on field leadership, causing some offices to deploy VIPR teams
           less aggressively than others. Some field leadership deploy their VIPR teams in
           mass transit venues where there are low crime rates and FAMs are less likely to
           make decisions about exercising their law enforcement authorities. Field
           leadership may deploy teams more often in aviation environments, where they
           perceive FAM authorities as better defined. In addition, some senior FAMs are
           hesitant to join VIPR teams because they consider guidance limited, and are
           unconvinced of headquarters support regarding law enforcement activities.


www.oig.dhs.gov                                24                                      OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            The majority of OLE/FAMS training, such as Basic Handcuffing and Arrest
            Procedures, is geared toward the aviation environment and assumes that a FAM
            has arrest authority and will use it. Other training addresses Interview
            Techniques, which contain elements useful to VIPR FAMs when they have the
            authority to interview mass transit passengers they deem suspicious. However,
            outside the aviation environment, FAMs are unclear whether they have the
            authority to detain a passenger for interview based on behavior. In addition,
            should a passenger refuse an interview, FAMs are unclear how they should
            respond.

            Guidance Does Not Reflect VIPR Program Operational Realities

            The National Deployment Operations Plan for Surface describes FAMs as
            “trained to operate overtly and covertly within a public environment to
            investigate, detect, and respond to criminal behavior indicators.” In August
            2010, TSA issued an operations directive describing VIPR Program deployments
            as meant to visibly deter potential criminal and/or terrorist planning and
            activity. 23 The most current Concept of Operations, updated in January 2008,
            included “conducting investigatory detentions based on reasonable suspicion”
            and “making arrests without warrants” in the FAMs’ role during VIPR operations.

            Although FAMs are considered law enforcement by the public and several
            partners and stakeholders, and in many locations have peace officer status and
            may respond to criminal situations, program leadership has recently discouraged
            FAMs from exercising this authority. In addition, program leadership reminds
            FAMs that the VIPR mission is consistent with TSA’s overͲarching mission, which
            is counterterrorism and transportation security. For example, in March 2011,
            TSA leadership released a memorandum to FSDs and SACs, which instructs that
            all deployments be “focused on prevention, deterrence and detection of
            terrorismͲrelated activities, not based on local antiͲcrime initiatives.” In
            addition, a draft update to the August 2010 operations directive removes
            language about deployments deterring and disrupting criminal planning and
            activities, and adds that “all VIPR operations must have a nexus to transportation


    23
     ODͲ400Ͳ50Ͳ1Ͳ13A, “VIPR Planning Guidance for Federal Security Directors and Office of Law
  Enforcement/Federal Air Marshal Service Special Agents in Charge,” August 6, 2010.
www.oig.dhs.gov                                     25                                           OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           security” and that “operations must be designed to deter, detect, and prevent
           acts of terrorism.”

           When potential criminal situations occur, VIPR Program leadership encourages
           FAMs to notify local law enforcement, which implies that FAMs are always with
           or in close proximity to local law enforcement. On some operations, local law
           enforcement officers or security team members accompany each VIPR group.
           However, other partners and stakeholders have limited personnel available to
           deploy with VIPR teams, and position their officers at strategic locations within a
           venue. In larger venues, there can be a great distance between a FAM and the
           closest local law enforcement officer or transit security officer. In addition,
           communication equipment is not always reliable or interoperable. On other
           operations, VIPR teams deploy with partner and stakeholder permission, but
           without local law enforcement or security team members.

           As a result, FAMs on VIPR operations need more specific guidance on
           engagement protocols and legal authorities when they encounter potential
           criminal situations. This can be achieved by leveraging existing guidance to VIPR
           team needs. For example, the 2005 Common Strategy Detailed Guidance
           (Strategy) describes the roles of flight and cabin crews with respect to FAMs and
           other law enforcement on board an aircraft. The Strategy has Threat Levels that
           include passengers’ behavior and appropriate flight and cabin crew actions for
           each Threat Level, as shown in figure 5.




www.oig.dhs.gov                                26                                       OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Figure 5: Behavior Threat Levels on an Aircraft
                     Threat Level                            Examples

            Level 1: Disruptive,            Alcohol or drug-induced disorderly
            suspicious or threatening       behavior or verbally abusive language;
            situation or behavior           non-violent threatening behavior.

                                            Physically abusive behavior towards
                                            another person or threats of such
            Level 2: Physically abusive
                                            behavior,
            behavior


                                            Imminent threat of death or serious
                                            bodily injury,

            Level 3: Life threatening
            behavior




            Level 4: Attempted or actual
            breach of the flight deck
                                                      .
           Source: OIG analysis of Federal Aviation Administration and TSA, Common Strategy Detailed
           Guidance, 2005.

           TSA officials said that there is no comparable document for the mass transit
           environment. However, some Strategy elements could be leveraged to draw
           parallel guidance for VIPR teams. For example, TSA could establish similar threat
           levels for mass transit environments and identify when a FAM may detain or
           interview a passenger, short of arrest. Once identified, TSA can establish
           engagement protocols and legal authorities for FAMs and other VIPR team
           members. In addition, transit agency representatives said that the industry
           continually develops security plans, shares best practices and training, and
           provides peer reviews and advice. TSA could use the transit industry as a
           resource when developing mass transit guidance.


www.oig.dhs.gov                                      27                                          OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #4: Develop and communicate guidance for FAM engagement
           protocols and legal authorities when VIPR teams encounter potential or actual
           criminal activity in mass transit environments.

           Management Comments and OIG Analysis

           Management Response to Recommendation #4: TSA officials concurred with
           Recommendation 4. In its response, TSA said the VIPR Program’s objective is to
           deter and prevent terrorist activities in any mode of transportation. TSA
           understands that VIPR personnel may encounter criminal activity while
           conducting operations; however, local law enforcement partners are responsible
           for addressing criminal activity, while VIPR teams’ focus remains on
           counterterrorism activities. TSA will increase communication with field
           personnel regarding existing guidance to enhance understanding and application
           of the protocols and authorities. TSA also anticipates addressing this topic in the
           training programs currently being developed.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 4,
           which is resolved and open. This recommendation will remain open pending our
           receipt of a communication plan and guidance for field personnel regarding FAM
           authorities during VIPR operations.

           TSA Has a Methodology To Select VIPR Deployments, But Additional
           Enhancements Are Needed

           VIPR teams deploy into transportation venues based on national program
           guidance and local partner and stakeholder needs and concerns. The JCC
           provides lists of critical infrastructure, and VIPR teams work with State and local
           transportation entities to schedule deployments that align with these priorities.
           When there is no specific intelligence regarding credible threats against the
           Nation’s surface transportation infrastructure, teams and stakeholders use their
           expertise to make deployment decisions. However, there is no documented
www.oig.dhs.gov                                 28                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           methodology that can be applied at the local level, and guidance regarding
           deployment focus and team activities is evolving.

           The Joint Coordination Center Provides Overarching Guidance Regarding VIPR
           Deployments

           VIPR deployments are based on a combination of national and local
           considerations. At the national level, the JCC provides teams with guidance
           regarding critically important venues in their areas of responsibility. These
           include 40 Focus Airports, 60 High Threat Urban Areas, 20 High Threat Maritime
           Locations, 23 Critical Freight Locations, 8 Critical Bridges and Tunnels, the Top
           100 Mass Transit Agencies, 22 Critical Pipeline Locations, and ManͲPortable Air
           Defense System Mitigation Plan Support. Figure 6 describes these categories in
           more detail.




www.oig.dhs.gov                                29                                       OIG-12-103
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

              Figure 6: JCC Deployment Venue Prioritization




              Source: OIG analysis of TSA documents.

             TSA leadership can also deploy teams based on credible intelligence or
             heightened security environments, as well as in response to events to enhance
             public and infrastructure security. The FSD and SAC in each area of responsibility
             are expected to coordinate and schedule VIPR operations at all National Special
             Security Events, and Special Event Assessment Rating level I and II events. 24
             Other events are supported when requested by State and local transportation

    24
     The Special Event Assessment Rating incorporates a risk methodology that prioritizes special events for
  Federal support based on general and dignitary attendance, significance, site protection complexity,
   duration, location, and local capabilities. There are five levels, with the highest being I, which commands
   full U.S. Government support.
www.oig.dhs.gov                                          30                                              OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            entities if a team is available. TSA’s Office of Intelligence and Analysis may also
            provide threat analyses to inform a VIPR team deployment in certain
            transportation systems. In addition, VIPR teams may partner with DHS
            components already performing uniformed operations.

            VIPR program guidance encourages randomness and unpredictability in the
            timing of operations, including operations outside normal business hours, on
            holidays, and on weekends. 25

            VIPR Teams Work With Partners and Stakeholders To Prioritize and Schedule
            Locally Generated Deployments

            To augment partner and stakeholder security posture, VIPR teams work with
            State and local transportation security entities to schedule locally generated
            deployments that align with JCC venue deployment priorities. By developing
            annual and monthly operational plans and DOPs with priority venue and system
            entities, teams create a local strategy. For example, one stakeholder described
            how it works with the VIPR team to concentrate on highͲdensity, highͲtraffic
            stations of mutual interest where multiple transit modes converge. Other
            stakeholders focus operations on their major stations and local venues based on
            vulnerability studies. Partners and stakeholders credit VIPR teams with being
            flexible and adapting their deployment venue priorities to accommodate local
            needs and concerns.

            VIPR teams and stakeholders plan deployments jointly, provide mutual support,
            and describe various engagement levels to initiate deployments. For example,
            some VIPR teams are incorporated into transit stakeholder uniformed
            operations. This relationship requires limited formal initiation from either party,
            as the VIPR team is considered an extension of the stakeholder’s security team.
            Another transit agency stakeholder said it initiates engagement with the VIPR
            team because it specifies that system operations are to be based on intelligence
            and homeland security issues. Another stakeholder said engagement was
            mutual, with the VIPR team offering availability on certain dates, as well as the

    25
     ODͲ400Ͳ50Ͳ1Ͳ13A, “VIPR Planning Guidance for Federal Security Directors and Office of Law
  Enforcement/Federal Air Marshal Service Special Agents in Charge,” August 6, 2010. Also, Draft ODͲ400Ͳ
  50Ͳ1Ͳ13B (unsigned).
www.oig.dhs.gov                                     31                                            OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            transit entity specifically requesting support for routine patrols and operations at
            highͲprofile events.

            Some stakeholders explained that they work with the SFAM to determine which
            locations and timing would be most effective for operations, as well as how to
            implement randomness. In some cases, where the transit system has its own
            deterrence program, the VIPR team may augment stakeholder deployments as
            well as request new operations. Although teams may work with each
            stakeholder four or five times per month, the randomness creates an
            appearance of greater coverage.

            Most teams engage stakeholders and can deploy to priority venues and systems.
            However, factors such as team availability and partner and stakeholder
            willingness to support the VIPR Program affect deployment to certain venues.
            For example, some VIPR teams said that even though they have a large
            geographic area of responsibility, team size requires that they focus operations
            on highͲconsequence infrastructure in urban centers, and engage other local
            transportation entities infrequently. One stakeholder described the program
            favorably, but implied a limited engagement because of its small staff size.
            Another transportation agency did not want the team operating on its trains
            because VIPR operations are unpopular with passengers.

            RiskͲBased Methodology Is Needed To Prioritize Deployments With
            Stakeholders

            Some TSA officials expressed concern that VIPR operation locations and timing
            are not based on a riskͲbased methodology or credible intelligence. A draft
            update to the August 2010 VIPR operational directive states that “a riskͲbased
            methodology should be applied when identifying potential locations for VIPR
            deployment in all transportation modes” in an area of responsibility and that
            “modal representatives from TSNM can provide subject matter expertise to this
            portion of the process.” 26 The guidance, however, does not explain what
            methodology to use, which can result in the use of different methodologies for
            each VIPR team field location. For example, one VIPR team member said there is

    26
     Draft ODͲ400Ͳ50Ͳ1Ͳ13B, “VIPR Planning Guidance for Federal Security Directors and Office of Law
  Enforcement/Federal Air Marshal Service Special Agents in Charge” (unsigned).
www.oig.dhs.gov                                     32                                              OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           no additional direction from the JCC on how to prioritize venues in his area of
           responsibility, other than the overarching JCC venue priority list. As a result, he
           identifies locations and venues where the team could have the most effect, but
           the methodology is specific to his team and not reviewed by TSA headquarters.

           For most U.S. surface transportation infrastructure, there has not been specific
           intelligence of credible threats. Field intelligence coordinators at FAM field
           offices described U.S. mass transit–related intelligence as limited, but said that
           credible intelligence on the tactics used abroad is shared with VIPR teams for
           situational awareness. Even though credible threat information is limited, there
           are periods of heightened awareness when VIPR teams, partners, and
           stakeholders work to reduce risks to mass transit systems. For example, during
           the 10th anniversary of the September 11, 2001, attacks, VIPR teams across the
           Nation increased their operational frequency. Two VIPR teams almost doubled
           their daily operations. In another city, leading up to the anniversary the VIPR
           team increased daily operations to four, working with as many as four
           stakeholders at each operation. On September 11, 2011, this team conducted
           seven operations. Partners and stakeholders also engaged VIPR teams to plan
           operations during this period.

           Some stakeholders have threat and vulnerability assessments for their
           transportation systems and information about suspicious activity, which they
           share with VIPR teams to inform operational planning. Teams also use their
           expertise about a system to determine the most effective locations and times for
           deployment. Although localͲlevel VIPR deployment methodology is not
           documented, teams use a variety of methods, in concert with stakeholders, to
           determine appropriate transit system coverage.

           VIPR Teams Need Additional Guidance on Deployments

           Deployment guidance focuses more on the VIPR Program’s intent than on what
           constitutes an appropriate deployment. For example, the Concept of Operations
           describes the purpose of VIPR deployments as supplementing existing security
           resources and providing a deterrent presence. Deployments are meant to
           provide detection and response capabilities and expand the unpredictability of
           security measures against terrorist operations. In addition, an August 2010 TSA
           operations directive describes VIPR Program deployment methodology as
www.oig.dhs.gov                                 33                                       OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           consistently exercising to deter criminal or terrorist activities and enhance TSA’s
           ability to deploy seamlessly to transportation venues in emergencies.

           In March 2011, the Assistant Administrators of OSO and OLE/FAMS issued a
           memorandum to all field FSDs and SACs to provide more specific guidance
           regarding deployments that are not considered within the scope of the VIPR
           Program. These types of deployments include the following:

           x      Fare ticket checks in mass transit venues

           x      Primary enforcement of Transportation Worker Identification Card status

           x      Deployment on local and interurban buses

           x      Operations focused specifically on the detection of general criminal activity

           x      Screening of individuals when leaving a transportation venue

           The majority of field leadership said it appears that TSA headquarters is hesitant
           to provide specific guidance on what constitutes an appropriate VIPR operation.
           As a result, field management uses its discretion to implement the program, and
           additional operational prohibitions are instituted by TSA headquarters. For
           example, because of train station vandalism, a stakeholder requested a VIPR
           team to accompany its security team in a station late at night. Although this
           type of operation was initially allowed, the VIPR team was told that similar
           operations are prohibited. VIPR team members described being unsure of the
           local DOP’s purpose, and preferring to use national guidance that specifies what
           teams may and may not do in bus and rail stations and other surface
           transportation venues such as highways, bridges, and tunnels. More specific
           guidance would ensure that VIPR teams know what constitutes an appropriate
           deployment and what TSA leadership envisions for the program.




www.oig.dhs.gov                                   34                                      OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #5: Provide enhanced guidance regarding riskͲbased
           deployment planning and increase access to risk assessment information that
           VIPR teams can use to prioritize deployments with partners and stakeholders.

           Management Comments and OIG Analysis

           Management Response to Recommendation #5: TSA officials concurred with
           Recommendation 5. In its response, TSA said that the Office of Security Policy
           and Industry Engagement issued a list that identifies highͲrisk transportation
           infrastructure to which field personnel could refer as basic guidance when
           planning VIPR operations. In addition, VIPR field personnel work with
           stakeholders to assess the potential consequences and vulnerabilities for
           terrorist actions at stakeholder venues. VIPR teams, in conjunction with
           stakeholders, also determine which VIPR capabilities can mitigate those
           vulnerabilities.

           Further, the VIPR Program is working with the Office of Security Policy and
           Industry Engagement to communicate the use of riskͲbased tools, techniques,
           and information to support planning and scheduling of VIPR operations with
           stakeholders.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 5,
           which is resolved and open. This recommendation will remain open pending our
           receipt of guidance that documents a riskͲbased methodology for field offices
           and personnel to use when selecting venues and planning VIPR operations.

           Organizational Placement Within TSA Hinders VIPR Program Effectiveness

           The VIPR Program is managed by OLE/FAMS Field Operations on behalf of TSA.
           Program leadership includes representation from OLE/FAMS, OSO, and the
           Office of Security Policy and Industry Engagement. Program leadership develops
           administrative and operational guidance for the program in collaboration with
www.oig.dhs.gov                               35                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           headquarters and field operations leadership. The VIPR Program directly
           manages the JCC and OSO and OLE/FAMS field leadership implement program
           activities in the field. The JCC does not have the authority to make and enforce
           independent executiveͲlevel decisions regarding the program’s direction or to
           ensure coordinated VIPR Program field personnel and asset support. Ineffective
           coordination hinders TSA’s ability to leverage operational capabilities, potentially
           diminishing its transportation security posture.

           VIPR Management Is Not Empowered To Make ExecutiveͲLevel Program
           Decisions

           For the VIPR Program, the Assistant Administrator for OSO and the Assistant
           Administrator for OLE/FAMS provide joint implementation guidance to FSDs and
           SACs via operational memoranda and directives.

           At the JCC, the VIPR Program Manager coordinates and provides policies and
           guidance regarding VIPR Program implementation and oversees VIPR operations.
           However, as figure 7 shows, the VIPR Program Manager is four levels below the
           Assistant Administrators who provide direct guidance to field leadership. As a
           result, the extent to which JCC VIPR Program management can provide and
           implement field guidance is not clear.




www.oig.dhs.gov                                36                                       OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Figure 7: Organizational Positioning of the VIPR Program




           Source: OIG analysis of TSA organization charts.

           Although overall VIPR Program management resides with OLE/FAMS, the
           operational control of field personnel and assets responsible for implementation
           is bifurcated. For example, according to VIPR Program guidance, SACs and FSDs
           within the same area of responsibility decide who leads the program locally. In
           many locations, OSO leads screening operations, while OLE/FAMS teams lead
           law enforcement or “patrolling” operations.



www.oig.dhs.gov                                      37                              OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Both program and field officials explained that because there is no central
           authority at TSA headquarters directing SACs and FSDs, leadership of personnel
           and assets performing VIPR operations is bifurcated. As a result, program
           effectiveness is heavily dependent on the ability of SACs and FSDs to work
           together and coordinate operations. In addition, no methodology is provided to
           the field to determine whether OSO or OLE/FAMs would be the most
           appropriate lead.

           Coordination Between OSO and OLE/FAMS Needs Improvement

           In some locations, there are effective partnerships and coordination between
           OSO and OLE/FAMS, and this relationship is often facilitated through the
           Assistant Federal Security DirectorͲLaw Enforcement (AFSDͲLE). FSDs and SACs
           empower the VIPR SFAM and the AFSDͲLEs from airports in an area of
           responsibility to plan operations, deploy teams, and ensure that partners and
           stakeholders are provided personnel and assets for all deployments. For
           example, in one location the SFAM and AFSDͲLE meet quarterly with their FSD
           and SAC to discuss past deployments, current events, and other topics that may
           affect VIPR operations.

           Another FSD described the SFAM as the point person for VIPR planning. The
           SFAM works with OSO personnel and assets provided by the FSD to the
           OLE/FAMS field office to conduct planning and coordinate resources for VIPR
           operations. In another example, an SFAM communicates with the AFSDͲLEs in
           his area of responsibility at monthly planning meetings to jointly determine who
           will perform which types of operations and where. In some areas of
           responsibility, FSDs and SACs create separate VIPR operations within aviation
           and surface modes, and coordination is limited.

           VIPR Operations in the Aviation Mode

           Both VIPR Program officials and airport partners and stakeholders claim that the
           insider threat is one of their greatest concerns at airports. The VIPR Program
           encourages teams to perform operations on the secure side of an airport to
           mitigate the insider threat, although not all field leadership agrees that these
           operations are valuable.

www.oig.dhs.gov                               38                                     OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            We observed that when an FSD is disengaged from law enforcementͲled VIPR
            operations, or where FSDs and SACs create separate VIPR operations in aviation
            and surface transportation, FAM VIPR team members rarely perform operations
            inside an airport. Where there are multiple types of operations and limited
            communication between FSD and SAC offices, FAMͲled VIPR teams often patrol
            the public side of airports. As a result, some FSDs do not understand why the
            VIPR team is in the airport, because TSA personnel and assets, as well as local
            law enforcement, are already patrolling this public environment. Some OSO and
            OLE/FAMS VIPR team members also consider operations on an airport’s public
            side a waste of time because of the multiple security layers, while mass transit
            remains less protected.

            Effective VIPR and Security Playbook Program Coordination Can Enhance TSA’s
            Aviation Security Posture

            Depending on the level of VIPR Program coordination and joint activity in an area
            of responsibility, TSA’s efforts to increase security at airports are inconsistent.
            Similarly to how teams work with highͲvisibility security teams in mass transit
            systems, VIPR teams can augment TSA’s other national operations, such as the
            Security Playbook Program.

            The Security Playbook Program is riskͲbased and intelligence driven, and is
            intended to increase airport security by increasing unpredictability and providing
            additional layers of security in the airport’s public and secure areas. 27 The
            Playbook Manager uses a randomizer program to generate security maneuvers,
            or plays, based on specific information. For example, the randomizer program
            may instruct a team to perform enhanced property and personal screening of
            airport personnel, including explosive trace detection, at security identification
            display area doors, checkpoints, and other limitedͲaccess doors. The randomizer
            program may also generate highͲvisibility plays in the public areas such as
            baggage claim, the terminal, and vehicle areas. Local law enforcement, FAMs,
            the AFSDͲLE, BDOs, canine teams, TSOs, and TSIs can be involved in the
            operations.

    27
     Statement of Christopher McLaughlin, Assistant Administrator, OSO and George Naccara, FSD, Logan
  International Airport, before the United States House of Representatives Committee on Homeland
  Security Subcommittee on Oversight, Investigations, and Management, September 16, 2011.
www.oig.dhs.gov                                       39                                          OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           A Playbook Manager determines plays far enough in advance to facilitate VIPR
           team support. When the threat level is raised enough to warrant plays in public
           transit airport access points, the Playbook Manager may request a VIPR team to
           cover these points. VIPR teams can provide highͲvisibility presence or additional
           covert support as requested. Also, when not needed in an airport, VIPR teams
           working in mass transit systems or other airport access points that observe
           potentially suspicious individuals can alert the Playbook Manager. This level of
           coordination, however, was described as unusual. For routine plays, FAMs
           involved are normally those stationed at an airport and not VIPR team FAMs.

           Working with a Playbook Manager would ensure that VIPR operations in
           aviation, regardless of who leads the program locally, are coordinated with an
           FSD’s staff. As a result, VIPR teams would be used more effectively, understand
           their role in airport security better, and enhance a Playbook Manager’s
           capabilities.

           Recommendations

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #6: Designate VIPR Program decisionͲmaking authority to one
           TSA headquarters office to ensure that overall field operations, program activity
           and engagement, and oversight are coordinated effectively.

           Recommendation #7: Ensure coordination and engagement between local VIPR
           team leaders and the Playbook Manager, and ensure that airport law
           enforcement VIPR operations are integrated with Security Playbook operations.

           Management Comments and OIG Analysis

           Management Response to Recommendation #6: TSA officials did not concur
           with Recommendation 6. In its response, TSA said it has designated the Field
           Operations organization within OLE/FAMS to manage the VIPR program.
           Recognizing the challenges of a multifunctional program, the VIPR Program
           structure includes section chiefs from OSO and the Office of Security Policy and
           Industry Engagement, who are responsible for communicating with their
www.oig.dhs.gov                                40                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           organizational leadership and performing policy development and analysis. As
           such, OLE/FAMS collaboratively manages the VIPR Program with other TSA
           leadership when program decisionͲmaking crosses organizational lines.

           Having designated management responsibility to OLE/FAMS and its collaborative
           program management structure, TSA believes this organization best serves the
           interests of internal and external stakeholders and does not intend to make
           additional organizational change.

           OIG Analysis: Although TSA did not concur, we consider TSA’s actions
           responsive to the intent of Recommendation 6, which is resolved and open.
           TSA’s current VIPR Program organizational structure, however, has not been
           effective, and operational control of field personnel and assets responsible for
           implementation remains bifurcated. As a result, without additional modification,
           the VIPR Program will continue to operate inefficiently. Assigning decisionͲ
           making authority to one TSA headquarters office to ensure that overall field
           operations, program activity and engagement, and oversight are coordinated
           effectively is prudent.

           Management Response to Recommendation #7: TSA officials did not concur
           with Recommendation 7. In its response, TSA said the recommendation’s
           wording does not easily translate into a tangible result. VIPR operations always
           require advance coordination and notification to stakeholders, as well as the
           FSD’s approval prior to deployment. Playbook’s mission and authority allows for
           lastͲminute execution of security activities. FSDs are responsible for planning
           and executing risk mitigation strategies and activities in their airports, and for
           coordinating VIPR operations with the appropriate OLE/FAMS SAC. As such, the
           FSD and SAC are responsible for determining the best strategies to use assets,
           capabilities, and programs. TSA will encourage regular communication among
           VIPR and Playbook leadership to develop guidance regarding leveraging the
           capabilities of both programs to mitigate risk more effectively.

           OIG Analysis: Although TSA did not concur, we consider TSA’s actions
           responsive to Recommendation 7, which is resolved and open. Aligning and
           leveraging existing program capabilities can enhance the efficient use of TSA
           resources, while also enhancing the effectiveness of both programs. This
           recommendation will remain open pending our receipt of guidance that
www.oig.dhs.gov                                41                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           leverages and coordinates Playbook and VIPR program capabilities to mitigate
           risk more effectively.

           VIPR Team Resource Allocation Is Disproportionate

           Each VIPR team is allocated
                  Although VIPR asset distribution across the Nation appears equitable, the
           size of each area of responsibility and density of critical infrastructure vary,
           which can create disproportionate workloads. In addition, the VIPR Program’s
           mass transit prioritization list from the Office of Security Policy and Industry
           Engagement may exacerbate the use of limited resources, and not all teams
           have equal access to OSO assets.

           Geographic Area and Critical Infrastructure Create Disproportionate Workloads
           for VIPR Teams

           Initially, VIPR team allocation was
                          Program and field leadership said initial allocations were based on
           fair distribution theoretically, but in practice are disproportionate. Table 1
           shows how the High Threat Urban Areas and transportationͲrelated
           infrastructure prioritized by the JCC are distributed among the VIPR teams as of
           December 2011.




www.oig.dhs.gov                                42                                       OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Table 1: VIPR Team Areas of Responsibility and Critical Infrastructure Priorities




           Source: OIG analysis of VIPR Program documents.

           For example, the Los Angeles VIPR team’s area of responsibility includes 10 of
           the top 100 mass transit agencies, 3 High Threat Urban Areas, and 6 other
           transportationͲrelated priority infrastructure. Although each VIPR team is the
           same size, the number of transportation venues prioritized by TSA varies greatly
           among areas of responsibility. Some locations have multiple mass transit and

www.oig.dhs.gov                                      43                                        OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            other priority transportation systems, requiring teams to interact with multiple
            partners and law enforcement stakeholders, while other locations have limited
            rail infrastructure. Appendix D shows the distribution of priority transportation
            venues and entities across each VIPR team area of responsibility.

            FAM Teams Are Overextended in Some Locations

            Some OLE/FAMS team members said that they were unable to cover venues in
            their area of responsibility adequately because of the area’s size or the size of
            the transportation infrastructure. One team described needing at least twice as
            many FAMs to meet demand, and supplementing the team with flying FAMs on
            nonͲmission status. 28 Another team occasionally supplements its VIPR
            operations with flying FAMs who have previously been on the VIPR team.

            Partners and stakeholders in these areas also expressed a desire to work with
            VIPR teams more, but recognized that some teams are overwhelmed. For
            example, one stakeholder wanted more FAMs available to keep a steady
            deployment tempo. Another stakeholder said that its large city and surrounding
            areas are full of important infrastructure, and the VIPR team is already
            overworked. This stakeholder wants the program to consider increasing VIPR
            FAM cadre size because it is supporting law enforcement stakeholders
            effectively.

            OLE/FAMS and OSO Have Requested Increased Allocations for VIPR Teams

            In FY 2012, the VIPR Program received an allocation increase, which includes 12
            additional VIPR teams to be distributed based on risk and workload. After a VIPR
            Program official performed an analysis of VIPR higherͲrisk partners, stakeholders,
            and venues, two teams will be allocated to New York and Washington, DC. One
            team each will be allocated to Baltimore, Boston, Chicago, Houston, Los Angeles,
            Newark, Seattle, and San Francisco. Appendix D shows the current field office
            areas of operation, team distribution, and critical infrastructure.




    28
     NonͲmission status refers to scheduled workdays when FAMs report to their assigned field office to
  perform administrative tasks such as completing travel vouchers and submitting time and attendance.
www.oig.dhs.gov                                      44                                             OIG-12-103
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Although the FY 2012 allocation and distribution demonstrates that program
           leadership is considering risk and workload in future allocations, the program
           should evaluate existing VIPR FAM team allocations and redistribute as needed.

           Mass Transit Venue Prioritization Guidance Should Be More Focused

           The JCC mass transit priority list is long, may not represent locations where
           deployed teams are best used, and may exacerbate use of limited resources.
           VIPR Program officials should prioritize mass transit entities on the list to reflect
           the purpose of the VIPR Program and local riskͲbased methodologies better.

           The VIPR Program uses highͲvisibility patrols to deter potential terrorist planning
           and attacks, as well as to promote confidence in the security and safety of
           transportation systems. The JCC mass transit priority list includes the top 100
           mass transit entities based on passenger volume. However, as table 2 shows,
           the top 25 entities based on passenger volume represent approximately 73
           percent of the Nation’s mass transit passenger travel.




www.oig.dhs.gov                                  45                                       OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Table 2: Top 25 Mass Transit Agencies by Passenger Volume




           Source: OIG analysis of data from American Public Transportation Association Public
           Transportation Fact Book, Washington, DC, April 2011.


           The 75 additional entities on the mass transit prioritization list represent the
           remaining mass transit volume. Although there is value in ensuring that teams
           are aware of all transit systems in their area of responsibility, ordering the list by
www.oig.dhs.gov                                  46                                       OIG-12-103
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


             passenger volume does not incorporate all aspects of riskͲbased mass transit
             security priorities.

             For example, systems and passengers are not the only program priority, as these
             systems can be used to paralyze urban areas and destroy other critical
             infrastructure near mass transit venues. As a result, VIPR teams described urban
             centers and critical infrastructure near transit venues when prioritizing
             deployments in certain locations. In addition, recent testimony on mass transit
             security addressed stakeholders’ concerns about the connection of major cities
             to their neighboring communities by mass transit, and the importance of
             ensuring that resources can be used to secure venues in these communities. 29

             The current mass transit venue prioritization list is not focused to reflect these
             concerns, and could be enhanced by prioritizing mass transit entities based on
             highͲthreat urban areas and their critical infrastructure and mass transit
             networks. For example, New York City is a highͲthreat urban area, and the New
             York Transit Authority ranks first in the Nation in passenger volume. As table 3
             shows, 5 of the top 25 transit entities on the JCC prioritization list (based on
             passenger volume) serve New York City. 30 These entities could be used in an
             attack or to create disruption and panic, but are ranked lower on the
             prioritization list because of passenger volume. As a result, it may be prudent to
             group these mass transit entities as one network when determining VIPR
             deployments.




    29
     Commissioner Peter Boynton, Connecticut Department of Emergency Management and Homeland
  Security. Testimony before the U.S. Senate Homeland Security and Governmental Affairs Committee,
  “See Something, Say Something, Do Something: Next Steps for Securing Rail and Transit,” June 22, 2011.
  30
     This list does not include Amtrak, which is considered to be intercity rail and not mass transit.
www.oig.dhs.gov                                         47                                             OIG-12-103
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

            Table 3: Transit Entities in the JCC Venue Deployment Prioritization
            (Top 25) That Serve New York City




              Source: OIG analysis of JCC venue deployment prioritization.

            In another example, Chicago is a highͲthreat urban area, and the Chicago Transit
            Authority ranks second in passenger volume. However, Chicago’s Metra is
            ranked 22nd on the prioritization list, although it serves the city’s major
            transportation centers, such as Union Station and Ogilvie Transportation Center,
            by transiting passengers to and from Chicago suburban areas. 31 It may be
            prudent for TSA to consider the Chicago Transit Authority and Metra as one mass
            transit network when determining VIPR deployments.

            TSA should also provide teams, using existing resources, with options and
            encourage teams to plan deployments that address plausible risks to priority
            infrastructure. For example, to meet demand, teams currently divide to cover
            more area and work with multiple partners and stakeholders. However, teams
            could be guided toward using existing resources to focus on a critical asset and
            deploy to chokepoints in transportation system networks. For example, in areas
            where mass transit systems convey passengers directly to airports, VIPR teams
            could split up and deploy to key locations serving transit lines entering the
            airport.

            Program leadership said that they are working to develop tools for FSDs and
            SACs to use in determining risk and areas of potential vulnerabilities, and
            aligning capabilities and assets based on risk. As a planned milestone for FY
            2012, the JCC intends to work with TSNM to complete a riskͲbased deployment
            approach using the Transportation Sector Security Risk Assessment

    31
     Metra is operated by the Northeast Illinois Regional Commuter Rail Corporation.
www.oig.dhs.gov                                        48                              OIG-12-103
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           methodology, and to continue to enhance its resource alignment with partner
           and stakeholder riskͲbased needs. The Transportation Sector Security Risk
           Assessment evaluates threat, vulnerability, and potential consequence of more
           than 200 terrorist attack scenarios for mass transit and passenger railroad,
           including factors such as threat capabilities, transit systems vulnerabilities, and
           the likelihood of execution. 32

           In the absence of guidance, VIPR teams use existing resources to determine
           priorities and meet at least part of their mandate. Developing more focused and
           concise priority lists and providing options for how priorities could be met with
           current resources will better position teams to carry out TSA’s vision for the VIPR
           Program.

           OSO Personnel and Assets Dedicated to OLE/FAMSͲLed VIPR Teams Need More
           Consistency

           OSO field leadership is directed by TSA headquarters to dedicate
                            to VIPR teams. However, OSO assets vary depending on FSD
           resource limitations and support for how the program is implemented in an area
           of responsibility. As there is no process to ensure that OSO personnel and assets
           assigned to VIPR teams are actually dedicated and participating, teams may not
           have full use of OSO assets.

           All FSDs receive direction from TSA headquarters regarding FAMͲled VIPR team
           resource allocation, but FSDs appear to have discretion whether or not to
           dedicate an OSO asset. For example, an FSD may not approve all deployments or
           may not consider the deployment a good use of the OSO asset. As a result, the
           FSD may recall the employee, direct the asset not to participate, or not assign
           the asset. In other cases, however, FSDs have limited OSO personnel, a situation
           that appears more common for the TSI and some BDO positions. At these
           locations, OSO team members already divide their time between supporting
           VIPR deployments and their regular airport duties.



   32
     John Pistole, Administrator, TSA. Testimony before the U.S. Senate Homeland Security and
  Governmental Affairs Committee, “See Something, Say Something, Do Something: Next Steps for
   Securing Rail and Transit,” June 22, 2011.
www.oig.dhs.gov                                       49                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #8: ReͲdistribute existing VIPR FAM position allocations
           among field offices according to highͲthreat urban areas, critical infrastructure,
           and mass transit networks using a riskͲbased methodology.

           Recommendation #9: Develop a process to increase oversight regarding the
           availability and involvement of OSO personnel and assets to OLE/FAMͲled VIPR
           teams.

           Management Comments and OIG Analysis

           Management Response to Recommendation #8: TSA officials did not concur
           with Recommendation 8. In its response, TSA said that the first FAM VIPR teams
           were assigned based on which locations had the most significant surface
           transportation infrastructure in all modes of transportation. After receiving
           additional VIPR teams in FY 2010, TSA allocated teams to areas with the second
           highest amount of surface transportation infrastructure. For the proposed FY
           2012 FAM teams, the VIPR Program assessed the status of all existing VIPR assets
           and allocated new teams using a riskͲbased decision making process, which
           considered threats, vulnerabilities, and consequences. The VIPR Program is also
           considering applying this approach to OSO asset location funded by the FY 2012
           enhancement.

           The VIPR Program regularly assesses the deployment patterns of each team and
           compares that to the available highͲrisk infrastructure in each team’s area of
           responsibility. To date, the analyses have not revealed operational problems
           that require redistribution of existing allocations, rather than surging assets as
           necessary. In addition, all VIPR FAMs are available to respond if credible
           intelligence is received regarding threats to a particular geographic area.

           Given TSA’s consideration for riskͲbased factors in all three VIPR FAMS team
           allocations, the responsiveness of VIPR FAMS personnel, and an analysis of the
           deployment history for all areas of responsibility, TSA does not concur that
www.oig.dhs.gov                                 50                                      OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           significant value would be achieved from redistributing the VIPR FAMS position
           allocations at this time. TSA will continue to monitor deployment patterns and
           update risk information to determine whether realignments should be pursued
           in the future.

           OIG Analysis: Although TSA did not concur, we consider TSA’s actions
           responsive to Recommendation 8, which is resolved and open. We will close this
           recommendation upon receipt of documentation that explains the riskͲbased
           methodology considered when assigning VIPR FAM assets to field offices.

           Management Response to Recommendation #9: TSA officials concurred with
           Recommendation 9. In its response, TSA said that approximately 60 percent of
           VIPR operations include both OSO and OLE/FAMS personnel. Field guidance
           requires the FSD and FAM SAC to designate operational team leaders and ensure
           that necessary personnel and capabilities are available for each operation. TSA
           said it would assess the staffing process for any TSA resource on VIPR operations
           and update the guidance as necessary. In addition, OSO will develop a process
           to ensure that affected FSDs are in compliance with the directive to assign
                                          to each VIPR team.

           OIG Analysis: We consider TSA’s action responsive to Recommendation 9, which
           is resolved and open. This recommendation will remain open pending our
           receipt of documentation of a process that ensures that OSO personnel are
           available to deploy with VIPR teams and in compliance.

           Length of VIPR Team Member Assignments Hinders Program Effectiveness

           The OSO and OLE/FAMS offices we visited have processes to select VIPR team
           members, but the methods used to make assignments differ. OLE/FAMS has
           extended the length of VIPR assignments. However, partners, stakeholders, and
           TSA officials said that rotations and team assignments should be further
           extended to allow time for training and to maintain effective stakeholder and
           team member relationships.




www.oig.dhs.gov                               51                                     OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           VIPR Team Member Selection and Length of Assignment Differ by Field
           Location

           OSO and OLE/FAMS have different processes for selecting VIPR team members.
           The OSO selection process includes asking staff to volunteer, using an
           alphabetical list of eligible staff, and having management direct individuals.
           When deciding who is eligible to participate, management considers the
           employee’s experience, length of time in position, and any disciplinary or
           corrective actions against the employee. OLE/FAMS uses a job announcement
           and application process, which could include an interview. After selecting team
           members, OSO and OLE/FAMs management assign staff to VIPR teams for
           varying periods. OLE/FAMS has guidance defining VIPR team assignments, but
           OSO does not. FSDs use their discretion to make assignments.

           In April 2011, OLE/FAMS extended VIPR assignments from 6 months to a
           maximum of 1 year at the SAC’s discretion. FAMS field offices implement this
           extension differently. For example, one field office assigns FAMs to two 6Ͳmonth
           terms, 1 year total, with 6 months of flying duties between VIPR team
           deployments. Another office keeps the team leader for only a year and rotates
           other members every 6 to 8 months. FSD staff may assign OSO personnel to a
           single operation or to the VIPR team for a set time. Even though staff could be
           assigned on an operationͲbyͲoperation basis, OSO rotational assignments
           typically ranged from 60 to 90 days.

           Team Training and Rotations Should Be Coordinated More Effectively

           Some team members must complete required TSA and stakeholderͲspecific
           training to participate on VIPR operations. However, frequent rotations create
           gaps in VIPR team capabilities, and each team must train new members
           continuously, which can result in inefficiencies. For example, one stakeholder
           said that time and money spent on training and equipment is wasted because of
           the rotation length, as newer team members have limited abilities to contribute
           immediately.

           In addition, BDOs working at airports are trained to establish a baseline for
           typical behaviors that passengers exhibit in the aviation environment. When
           participating on VIPR operations in mass transit venues, BDOs must establish a
www.oig.dhs.gov                               52                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           passenger baseline for this environment. The frequent rotations require BDOs to
           reacclimate between these environments. Also, required training for specialized
           capabilities, such as PRND equipment for FAMͲled VIPR teams, is offered
           infrequently. As a result, TSA officials said that some teams have gone for
           extended periods without PRND capability because certified FAMs rotated off
           teams and newly assigned FAMs have not completed the required training.

           To maintain team capabilities and increase VIPR assignment efficiency, one field
           office trains its FAMs on rail safety and PRND equipment before they participate
           on the team. All field offices we visited stagger FAM rotations, which allows
           experienced team members to provide new VIPR FAMs with onͲtheͲjob training
           and ensure continuity of operations and capabilities.

           Some FAM officials compare VIPR assignments with other groundͲbased
           assignments, such as serving as a member of the Federal Bureau of
           Investigation’s Joint Terrorism Task Force. These officials said that VIPR
           assignment length should be comparable to other groundͲbased assignments,
           which can range from 3 to 5 years. In addition, an OSO official said that short
           rotation periods give the impression that TSA does not fully support the VIPR
           Program. To support the program more effectively and improve its efficiency,
           TSA should mirror other groundͲbased assignments by lengthening staff
           rotations on VIPR teams.

           Frequent VIPR Team Member Rotations Hinder Effective Stakeholder
           Relationships

           Establishing and maintaining effective relationships is integral to the VIPR
           Program’s success. In an October 2007 document titled “Effective Employment
           of Visible Intermodal Prevention and Response (VIPR) Teams in Mass Transit and
           Passenger Rail,” TSA, partners, and stakeholders recognized that VIPR team
           member consistency enhances joint security operations and their deterrent
           effect. The document also states that “coordination builds the trust and mutual
           understanding of capabilities, operating environment and circumstances, and
           security augmentation needs that are essential elements of effective joint
           security enhancement activities.”


www.oig.dhs.gov                                53                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           FAMs rotate off VIPR teams after developing relationships with partners and
           stakeholders. As a result, these entities have to reͲestablish relationships with
           new FAMs. As building effective relationships takes time, some partners and
           stakeholders rely on former VIPR team members rather than creating
           relationships with new members. Most VIPR team members, partners, and
           stakeholders interviewed want assignments lengthened to maintain effective
           relationships.

           Recommendation

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #10: Extend OLE/FAMS and OSO VIPR assignments for more
           than 1 year.

           Management Comments and OIG Analysis

           Management Response to Recommendation #10: TSA officials did not concur
           with Recommendation 10. In its response, TSA said that it acknowledges the
           benefits of having VIPR personnel in place for the longest periods possible to
           establish, maintain, and enhance stakeholder relationships and deployment
           capabilities. The VIPR Program has addressed this concern by having 18Ͳmonth
           to 3Ͳyear assignment durations for SFAMs. In addition, VIPR team rotations are
           staggered to reduce the effect on stakeholder relationships.

           OLE/FAMS personnel assignments to VIPR teams are 6 months, and can be
           extended to 1 year. As a VIPR team member, FAMs can engage in their role as
           law enforcement officers and obtain experience in more transportation
           environments. TSA said that having a large number of FAMs with VIPR skills,
           experiences, and equipment is valuable for surge capacity in support of credible
           threats, high priority events, or terrorist incident.




www.oig.dhs.gov                                54                                       OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OSO will assess VIPR rotation length for its personnel and, if the assessment
           supports a change in assignment durations, will extend assignments for the VIPR
           team TSSͲE, TSI, and BDO.

           OIG Analysis: Although TSA did not concur, we consider TSA’s action responsive
           to Recommendation 10, which is resolved and open. SFAMs are responsible for
           supervising the VIPR Program and its operations, and FAMs and OSO personnel
           have more direct interaction with stakeholders and partners. A key component
           of the VIPR Program’s effectiveness is establishing, maintaining, and enhancing
           stakeholder and partner relationships and capabilities. As a result, additional
           consideration for extending FAM and OSO personnel assignments on VIPR teams
           is prudent. This recommendation will remain open pending our receipt of
           documentation that OSO has assessed VIPR rotation lengths and determined
           appropriate duration.

           Transportation Security Inspector Roles and Responsibilities Are Performed
           Inconsistently

           The 9/11 Act and TSA guidance allocate FAMs, TSIs, TSOs, BDOs, TSSͲEs, and
           explosive detection canine teams to support VIPR operations. Partners and
           stakeholders select from these capabilities and assets to augment their security
           operations. However, the TSI’s role on VIPR teams is inconsistent, as defined
           position duties and requirements are not always performed or leveraged.

           VIPR Program Team Composition Varies by Stakeholder

           Transit agencies participating in VIPR operations work with TSA field leadership
           to request a combination of available TSA personnel and assets to augment
           security at their venues. As a result, VIPR operations may not include all TSA
           capabilities. Table 4 shows TSA VIPR participation on deployments we observed.




www.oig.dhs.gov                               55                                      OIG-12-103
                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

          Table 4: TSA Asset Participation on VIPR Operations

                                  FAM     SFAM     BDO    TSI   TSO   TSSE   Canine
           Operation 1
           Operation 2
           Operation 3
           Operation 4
           Operation 5
           Operation 6
           Operation 7
           Operation 8
           Operation 9
           Operation 10
           Operation 11
          Source: OIG analysis.

           The Transportation Security Inspector’s VIPR Role Is Not Consistent

           According to the VIPR Concept of Operations, TSIs are TSA’s rail and mass transit
           safety and security subject matter experts. The VIPR Standard Operating
           Procedures state that TSIs should be a “visual deterrent, provide modalͲspecific
           expertise, and respond to security related incidents,” and require TSIs to inspect
           rail cars while the cars are stationary at VIPR venues. Aside from VIPR
           operations, TSIs perform vulnerability assessments and serve in a regulatory
           capacity in the mass transit environment.

           In the 11 operations we observed, TSIs performed some duties described in
           these VIPR documents. For example, TSIs conducted preͲVIPR operation
           briefings at four venues. These briefings provided VIPR participants with
           information about the venues, including safety features and emergency escape
           routes, or introduced team members and their roles. TSIs were team leaders for
           two operations. At all venues, TSIs wore jackets with “TSA Inspector” printed on
           the back to convey a visible asset.

           TSIs serve as a visible presence during operations. Of the 26 partners or
           stakeholders we interviewed, only 3 said that TSIs are contributing as subject

www.oig.dhs.gov                                     56                                 OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           matter experts during VIPR operations. Several partners, stakeholders, and TSA
           officials, including two TSIs, were unsure what role TSIs are expected to perform.
           The two TSIs attributed the confusion to insufficient guidance. Additionally, TSIs
           serve in a regulatory capacity in the mass transit environment and can impose
           fines on stakeholders, which further confuses their role in a voluntary security
           enhancement program such as VIPR.

           Refining TSI roles and responsibilities during VIPR operations could enhance use
           of this asset. For example, in their regulatory capacity, TSIs are required to
           conduct station profiles and analyze and report on existing security practices, as
           well as on areas needing improvement. Transit agencies use these reports to
           apply for various Federal grants to improve practices and rectify any deficient
           areas identified by TSIs. As TSIs have knowledge of security practices and grants
           available to transit agencies, they are in a unique position to assist transit
           agencies.

           In addition, the 9/11 Act permits transit agencies receiving grants to use funds to
           acquire security response training and exercises. Working with TSNM’s Mass
           Transit Division, TSIs could help transit agencies take advantage of training
           opportunities and planning exercises. VIPR teams could also use TSIs to identify
           station vulnerabilities and assist in planning VIPR operations. Using the
           resources and information available, TSIs can assist stakeholders, while being a
           valuable asset to VIPR teams. Redefining TSI roles and responsibilities will
           enhance team and stakeholder relationships, leverage their capabilities better,
           and improve VIPR Program efficiency and effectiveness.

           Recommendation

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #11: Refine Standard Operating Procedures to reflect
           appropriate roles and responsibilities for TSIs during VIPR operations.




www.oig.dhs.gov                                57                                      OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Comments and OIG Analysis

           Management Response to Recommendation #11: TSA officials concurred with
           Recommendation 11. In its response, TSA said that the VIPR Program has started
           reviewing the VIPR Standard Operating Procedures, and will update the TSI role
           during operations and leverage TSI subject matter expertise. The Compliance
           Section of OSO was involved in the policy update and will be integral to
           implementing this recommendation. The policy update is currently in TSA’s
           approval process.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 11,
           which is resolved and open. This recommendation will remain open pending our
           receipt of the updated VIPR Standard Operating Procedures, which clearly
           defines the TSI role on VIPR teams.

           Canine Teams Add Value to VIPR Operations

           The National Explosives Detection Canine Team Program trains and certifies
           canines and handlers to detect explosive and chemical substances in all modes of
           transportation. This program provides TSA with 45 multimodal/mass transit
           canine teams. These teams are highly visible, enhance screening capabilities,
           and help build stakeholder relationships. Until November 2011, TSA canine
           teams had been allocated between OSO and OLE/FAMS—23 and 22 teams
           respectively—to support transportation security operations.

           TSA Canine Team Realignment Effects

           In November 2011, TSA announced that it was realigning the 22 VIPR FAM
           canine teams with OSO canine teams to mitigate challenges associated with
           parallel operational structures. In the realignment, FAMs could transfer with
           their canine to OSO and remain handlers, but were required to surrender their
           law enforcement authority and retirement benefits. Only two FAM canine teams
           transferred to OSO.

           The remaining OLE/FAM handlers returned to flying duties or other groundͲ
           based assignments, and the canines were returned to the National Explosives
           Detection Canine Team Program. As a result, only 25 OSO canine teams
www.oig.dhs.gov                               58                                    OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           remained to assist with VIPR Program operations. In addition, OSO canine teams
           are stationed at airports and are available to assist VIPR Program operations only
           at an FSD’s discretion. All canine teams complete explosive and chemical
           detection training, but not all handlers have law enforcement authority.
           Although all canine handlers complete the same training, their authority to
           operate within the transit environment varies and affects a canine team’s ability
           to secure transportation infrastructure. For example, a law enforcement canine
           handler is authorized to stop, search, and question a person when the canine
           detects explosive material. A TSI canine handler, however, does not have law
           enforcement authority, may not stop an individual, and must request assistance
           from a law enforcement officer.

           Law enforcement authority allows FAMs and stakeholder officers to respond
           immediately to a situation. Pairing this capability with TSA’s primary mission to
           protect all modes of transportation against a terrorist attack makes law
           enforcement canine handlers more valuable. Recognizing the need for canine
           teams to have law enforcement present at a VIPR operation, one stakeholder
           said that it would prefer to use its law enforcement officer to handle an OSO
           canine rather than use an OSO handler and canine. An OSO official said that
           VIPR teams relied more on stakeholder canine teams after the program
           realigned to allͲOSO handlers.

           Costs and Benefits of Canine Teams

           Before the realignment, each FAM canine team cost approximately $220,000
           annually; these costs include the handler’s salary and canine maintenance and
           veterinary care. After the realignment, TSA provides canines only to TSIs and
           State and local law enforcement entities. Each TSI canine team cost
           approximately $170,000 annually, and future year costs become lower as initial
           startup and training costs do not recur. For participating State, local, and transit
           agency law enforcement entities, TSA provides an annual stipend of up to
           $50,000 for canines. The stipend helps to offset canine maintenance and
           veterinary costs.

           In exchange for the canine and funding, stakeholders are required to maintain
           TSA canine certification and must support TSA missions in aviation, mass transit,
           or cargo environments 80 percent of the time. State and local law enforcement
www.oig.dhs.gov                                 59                                       OIG-12-103
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


          canine teams can assist other agencies at different venues for the remaining 20
          percent of the time. Table 5 compares the costs and benefits associated with
          the three canine team program options: TSI, FAM, and State and local law
          enforcement.

          Table 5: Costs and Benefits of Canine Handler Options
                                                                     Transit/Local
                                     OLE/FAM          OSO Canine
                                                                     Police Officer
                                   Canine Handler      Handler
                                                                    Canine Handler
           DHS' Annual
                                      $220,000           $170,000       $50,000
           Cost per Team
           Immediate
                                         9                                9
           Response Time
           Law Enforcement
           Intervention                  9                                9
           Capability
           Immediate TSA
           "command and                  9                  9
           control"
          Source: OIG analysis.

          Recommendation

          We recommend that the Administrator for the Transportation Security
          Administration:

          Recommendation #12: Evaluate the realignment to determine any potential
          adverse effects on TSA’s ability to ensure that VIPR teams have sufficient access
          to law enforcement canine teams.

          Management Comments and OIG Analysis

           Management Response to Recommendation #12: TSA officials concurred with
           Recommendation 12. In its response, TSA said it assessed program data for
           Explosives Detection Canine Teams since the December 2011 realignment. The
           number of nonͲFAMS Explosive Detection Canine Teams participating in VIPR
www.oig.dhs.gov                              60                                    OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           operations each month has remained constant since the realignment, indicating
           no decline in availability of Explosive Detection Canine Teams. TSA said the
           combination of nonͲFAMS Explosive Detection Canine Teams with the
           requirement for law enforcement presence at all operations, indicates that there
           have been no adverse effects. TSA respectfully requests to close this
           recommendation based on this evaluation.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 12,
           which is resolved and open. Protecting transportation modes from dangerous or
           terrorist activity requires immediate law enforcement officer response to various
           situations. As a result, additional consideration is necessary to ensure that nonͲ
           FAMS Explosive Detection Canine Teams maintain the ability to respond. This
           recommendation will remain open pending our receipt of the documented
           assessment that verifies law enforcement capabilities and effectiveness are
           maintained during VIPR operations with nonͲFAMS Explosive Detection Canine
           Teams.

           Standardized VIPR Training and Team Participation in Joint Exercises Is Needed

           OSO and OLE/FAMS have developed and deployed separate VIPR training
           courses, but there is no established and uniform training program for all VIPR
           participants. Standardized training improves operational efficiency and ensures
           that team members are informed of appropriate procedures. In addition, joint
           exercises allow VIPR participants to work with partners and stakeholders and
           learn how each responds to incidents. Incorporating existing courses from both
           OSO and OLE/FAMS would establish a more uniform training baseline and
           understanding of all VIPR Program roles and capabilities.

           VIPR Training Opportunities Exist

           As of December 2011, OLE/FAMS had developed and deployed VIPRͲspecific
           courses, but an overall VIPR training curriculum had not been approved. Existing
           courses include Basic Handcuffing Techniques (which emphasizes groundͲbased
           deployments), Field Interviewing, Arrest Procedures, VIPR Legal, VIPR Overview,
           and GroundͲBased Incident Response (which includes active shooter scenarios).
           The VIPR Crowd Control Overview course was developed and awaiting

www.oig.dhs.gov                                61                                     OIG-12-103
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            deployment approval. OLE/FAMS may also complete DNDO training on PRND
            equipment.

            OSO has a VIPR training curriculum; however, this training is required only for
            TSIs. Courses include Railroad 101, Transit Rail Security, and Transit Rail Incident
            Investigation. TSIs must complete Railroad 101 before accessing rail yards. In
            contrast, BDOs, TSOs, TSSͲEs, and additional OSO assets are required to
            complete only partner and stakeholder rail safety training before accessing
            transit venues.

            Some VIPR team members also complete the Department of Transportation’s
            Federal Motor Carrier Safety Administration course “Trucks and Terrorism –
            Rapid Risk Recognition, Assessment, and Response.” This course teaches
            criminal behavior indicators, interview techniques, and concealment techniques
            in the motor carrier environment.

            In addition, partners and stakeholders often require VIPR team members to
            complete training before permitting operations in their systems, so that teams
            have a common understanding of specific venues and infrastructure. Of the 26
            partners and stakeholders we interviewed, 18 had VIPR team member training
            courses.

            Additional VIPR Training Opportunities Are Being Developed

            Both OLE/FAMS and OSO officials acknowledge the need to improve VIPR
            training. For example, in a June 2011 memorandum, OLE/FAMS officials
            proposed a FAM VIPR curriculum to include existing courses, as well as updating
            or creating new courses. The memorandum proposes updating the VIPR
            Overview course to emphasize the terrorist planning cycle, and creating
            Encountering and Disarming an Armed Subject and VIPR Equipment
            Familiarization courses. Also, the Federal Law Enforcement Training Center built
            an onsite Intermodal Training Facility in August 2011, and OLE/FAMS has three
            instructors embedded in its Counterterrorism Training Division. 33 These


    33
     The Federal Law Enforcement Training Center is an interagency law enforcement training organization
  for Federal, State, local, tribal, and international law enforcement agencies.
www.oig.dhs.gov                                           62                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           instructors review existing and planned training materials to enhance the
           OLE/FAMS VIPR curriculum.

           OSO is developing a VIPR 101 course, which instructs team members on VIPR
           policy, legal authority, planning, and operations. In addition, OSO is developing a
           Railroad 101 for Law Enforcement Officers course, which introduces law
           enforcement officers to basic railroad information and safety and addresses
           situational awareness, presence, and involvement. Although this course is
           appropriate for FAMs, other courses, such as Transit Rail Security and Transit Rail
           Incident Investigation, are also relevant.

           In 2011, TSA centralized all training responsibilities within its Office of Training
           and Workforce Engagement. This office is tasked with combining all existing
           technical, leadership, and workforce training. By leveraging OLE/FAMS and OSO
           existing and planned VIPR specific courses, the Office of Training and Workforce
           Engagement could assist them with developing a standardized VIPR Program
           curriculum.

           VIPR Teams Participate in Joint Exercises With Partners and Stakeholders

           In addition to training courses, some VIPR teams participate in partner and
           stakeholder exercises. As a result of joint exercises, these entities and VIPR
           teams develop better relationships and learn appropriate team member roles
           and situational responses. Although partners and stakeholders initiate most
           joint exercises, TSNM also can facilitate exercises with transit agencies by using
           the Intermodal Security Training Exercise Program. This program provides
           surface transportation communities with meaningful evaluations of their
           preparedness for and ability to respond to terroristͲrelated incidents. It
           exercises potential transportation security scenarios with various Federal, State,
           and local entities, including law enforcement and first responders. In
           conjunction with the Intermodal Security Training Exercise Program, TSA uses
           the Exercise Information System to plan and implement exercises, and the
           Exercise Evaluation System to record activity and evaluate decisions made during
           exercises.




www.oig.dhs.gov                                 63                                       OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #13: Develop and implement a TSAͲwide VIPR training
           program, to include rail safety and groundͲbased incident response training
           scenarios.

           Recommendation #14: Evaluate exercises that could incorporate VIPR teams,
           law enforcement partners and stakeholders, and determine the feasibility of
           conducting joint exercises in all VIPR Program field offices and areas of
           responsibility.

           Management Comments and OIG Analysis

           Management Response to Recommendation #13: TSA officials concurred with
           Recommendation 13. In its response, TSA said that the VIPR Program is
           coordinating with TSA’s Office of Training and Workforce Engagement on
           developing an overarching training capability. The VIPR Program and Office of
           Training and Workforce Engagement are discussing with the Federal Law
           Enforcement Training Center about holding an initial VIPR Curriculum
           Development Conference at its facility in Glynco, GA. The first VIPR Curriculum
           Development Conference may be held at the new Federal Law Enforcement
           Training Center Intermodal Training Facility, which can facilitate training in
           various transportation modes. It will also provide an opportunity to partner with
           the Federal Law Enforcement Training Center to leverage relevant its existing
           counterterrorismͲrelated curriculum and curriculum development assets.

           The VIPR training program will need to consider the outcomes and VIPR
           operational changes based on recommendations contained in this report.
           Building in training flexibility to adapt to emerging operational practices and
           emerging threats will also be critical.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 13,
           which is resolved and open. This recommendation will remain open pending our
           receipt of the TSAͲwide VIPR Program training materials.
www.oig.dhs.gov                                 64                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Response to Recommendation #14: TSA officials concurred with
           Recommendation 14. In its response, TSA said that joint exercises between TSA
           and its partners and stakeholders are invaluable to identify operational needs
           and demonstrate capabilities. In addition, joint exercises can identify
           operational gaps that can be resolved through effective training solutions.

           TSA said that the VIPR Program will work with the Office of Security Policy and
           Industry Engagement to determine how the Intermodal Security Training and
           Exercise Program exercises and other joint exercises could be integrated
           effectively into existing VIPR operational activities. This information can be
           incorporated into stakeholder relationship activities to increase the level of
           consistency with which joint exercises are considered, planned, and conducted.

           OIG Analysis: We consider TSA’s action responsive to Recommendation 14,
           which is resolved and open. In addition to consulting the Office of Security Policy
           and Industry Engagement Program, TSA should consult its field offices to
           determine which joint training and exercises with stakeholders and partners are
           currently conducted and can be replicated at other field offices. This
           recommendation will remain open pending our receipt of guidance to field
           offices on implementing joint training and exercises with stakeholders and
           partners.

           Equipment Maintenance Enhances Effectiveness, and OSO Safety Gear May Be
           Necessary

           On some VIPR operations, TSOs use explosive trace detection screening
           machines and FAMs operate PRND equipment. There are concerns, however,
           that equipment is infrequently maintained and not calibrated for the mass
           transit environment. When conducting operations, OSO assets can wear TSA
           uniforms to be visible; however, they may not have enough protection in mass
           transportation environments.

           Equipment Maintenance Is Infrequent

           TSA officials said that explosive trace detection machines and PRND equipment
           used for VIPR operations are not maintained or calibrated regularly, which can

www.oig.dhs.gov                                65                                      OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           cause ineffective and inefficient operations. A number of transit agencies and
           TSOs also expressed concern regarding screening machine accuracy.




                                                                     Partners and
           stakeholders stop screening operations when excessive innate positive readings
           occur. VIPR Program officials need to explore options to rectify excessive innate
           positive readings during VIPR screening operations.

           In June 2008, DNDO began working with the VIPR Program to provide FAMͲled
           VIPR teams with PRND equipment. Since 2008, PRND equipment has not
           received maintenance or calibration, and several field offices said that the
           equipment is inoperable. To resolve this issue, DNDO and TSA officials are
           drafting an agreement to establish a PRND equipment maintenance schedule.

           OSO Assets May Need Safety Gear

           Uniforms enhance VIPR operation visibility and can be a deterrent to terrorist or
           criminal activity. Uniformed VIPR operations are often associated with local law
           enforcement officers and FAMs, but stakeholders can also request that TSOs,
           TSIs, or BDOs wear uniforms. Some TSA officials expressed concern that
           uniformed OSO assets could be targets for those with criminal intent, as they are
           unarmed and not issued protective gear. In an effort to protect OSO assets, one
           field office issued safety gear, such as ballistic vests.

           To address safety concerns, some OSO VIPR team members prefer nonͲuniform,
           plain clothes operations. A uniformed presence can deter terrorists, but plain
           clothes operations are also beneficial because assets can perform counter
           surveillance and watch passenger reactions to uniformed personnel, as well as
           blend with passengers to observe suspicious activity.




www.oig.dhs.gov                                66                                     OIG-12-103
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Administrator for the Transportation Security
           Administration:

           Recommendation #15: Ensure that screening equipment used for VIPR
           operations is calibrated for the mass transit environment.

           Recommendation #16: Conduct an evaluation to determine what safety and
           protective gear should be provided to OSO assets when participating on VIPR
           operations.

           Management Comments and OIG Analysis

           Management Response to Recommendation #15: TSA officials concurred with
           Recommendation 15. In its response, TSA said that prior to our review, the VIPR
           Program had already started to address the calibration and maintenance issue
           for PRND equipment assigned to all OLE/FAMSͲled VIPR teams. Maintenance
           and warranty contracts have been established for all PRND equipment. VIPR
           Program management personnel are working with DNDO to develop and
           implement protocols for the same.

           The VIPR Program is working with TSA’s Office of Security Capabilities to define
           requirements and calibration protocols for explosives trace detection
           technologies used during surface VIPR operations. TSA’s Office of Training and
           Workforce Engagement is developing specific training requirements for any
           technologies deployed on VIPR operations, specifically TSO use of MultiͲModal
           Trace Detection technology.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 15,
           which is resolved and open. This recommendation will remain open pending our
           receipt of guidance regarding screening equipment maintenance and calibration
           procedures.

           Management Response to Recommendation #16: TSA officials concurred with
           Recommendation 16. In its response, TSA said that it is currently assessing the
           role of OSO assets in VIPR operations. The results of that assessment can affect
www.oig.dhs.gov                                67                                     OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           safety and protective equipment requirements for OSO assets. Building from
           that assessment, the VIPR Program can assess both the safety and protective
           equipment needs for all VIPR personnel types who participate in VIPR
           operations. The findings from these evaluations will also inform the VIPR
           training development process.

           OIG Analysis: We consider TSA’s actions responsive to Recommendation 16,
           which is resolved and open. This recommendation will remain open pending our
           receipt of the final assessment regarding issuing safety and protective
           equipment to OSO personnel for use during VIPR operations.

   Conclusion
   The 9/11 Act authorized TSA to form VIPR teams, which can consist of any DHS asset,
   including FAMs, TSIs, explosive detection canine teams, or screening technologies.
   Additional staffing and funding have led to increased VIPR operations, and the VIPR
   Program has improved its ability to establish effective partner and stakeholder
   relationships. However, organizational, programmatic, and operational challenges
   remain. Specifically, the VIPR Program’s placement within TSA hinders its ability to
   ensure coordinated VIPR field activities. Guidance is needed to clarify law enforcement
   activities, team member roles and responsibilities, and equipment use during VIPR
   operations. Additionally, VIPR deployment methodology needs refinement, and
   resources are not allocated proportionately to team workloads across the Nation.
   Teams do not receive standardized training, and the length of VIPR team member
   assignments affects program effectiveness. TSA can enhance program efficiency and
   effectiveness by addressing these challenges.




www.oig.dhs.gov                              68                                     OIG-12-103
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107Ͳ296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We assessed TSA efforts to deploy VIPR teams to augment security in rail and mass
   transit systems as part of our Fiscal Year 2011 Annual Performance Plan. Our review
   focused on whether TSA has integrated Federal and local partners in planning and
   executing VIPR deployments, and on the efficiency and effectiveness of the VIPR
   Program to enhance security, identify suspicious behavior, and deter potential terrorist
   attacks on rail and mass transit systems.

   Our objectives were to determine the methodology TSA uses to select VIPR
   deployments; whether geographic location and critical infrastructure affect the conduct
   of VIPR team operations; and whether VIPR teams are efficient and effective in
   augmenting local, State, and Federal efforts to enhance security on rail and mass transit
   systems.

   To accomplish our objectives, we interviewed Federal officials and State and local law
   enforcement personnel, and reviewed and analyzed related documents and data.
   Specifically, we interviewed officials and staff from TSA, U.S. Coast Guard, U.S. Customs
   and Border Protection, U.S. Secret Service, Office of Policy, Office of Civil Rights and Civil
   Liberties, the Privacy Office, DNDO, and the National Protection and Programs
   Directorate. We also met with officials from the Department of Transportation,
   including the Federal Railroad Administration, Federal Transit Administration, and
   Federal Motor Carrier Safety Administration, to gain their perspectives on the VIPR
   Program.

   To assess the efficiency and effectiveness of TSA’s VIPR Program to augment security in
   rail and mass transit systems, we conducted site visits and interviews with the following
   stakeholders:


www.oig.dhs.gov                                 69                                        OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   x   Amtrak Police Department
   x   Bay Area Regional Transit
   x   Chicago Police Department
   x   CSX Railroad
   x   Foothill Transit
   x   Greater Cleveland Regional Transit Authority
   x   Long Beach Transit
   x   Los Angeles Sheriff’s Office
   x   Massachusetts Bay Transit Authority
   x   Maryland Transit Administration
   x   Maryland Transportation Authority
   x   Metropolitan Washington Airports Authority
   x   New York Metropolitan Transit Authority
   x   New York Police Department
   x   Northeastern Illinois Regional Commuter Railroad Corporation (Metra)
   x   Port Authority of New York and New Jersey
   x   San Francisco Police Department
   x   Southeastern Pennsylvania Transit Authority
   x   Virginia Department of Transportation
   x   Virginia Railway Express
   x   Washington Metropolitan Area Transit Authority

   We held discussions with officials from the Government Accountability Office, the
   Metropolitan Atlanta Rapid Transit Authority Police Department, the New Jersey Transit
   Police Department, and the American Public Transit Association to gain their
   perspectives on TSA’s VIPR Program.

   In addition, we examined VIPR Program guidelines and procedures, including applicable
   laws, regulations, and policies. We also assessed the resources that DHS and its
   operational components provide to the VIPR Program.

   Our fieldwork began in August 2011 and concluded in December 2011. We initiated this
   review under the authority of the Inspector General Act of 1978, as amended, and
   according to the Quality Standards for Inspections, issued by the President’s Council on
   Integrity and Efficiency.

www.oig.dhs.gov                              70                                     OIG-12-103
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                              71                                    OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix B
   Recommendations
   We recommend that the Administrator for the Transportation Security Administration:

   Recommendation #1: Develop and implement a public awareness initiative to convey
   the VIPR Program’s intent.

   Recommendation #2: Clarify the definitions of VIPR operations and provide guidance to
   headquarters and the field about how to complete operational documentation to
   correctly report operations.

   Recommendation #3: Establish and implement a data reporting procedure that ensures
   information submitted to the Joint Coordination Center is updated and reflects each
   VIPR operation accurately.

   Recommendation #4: Develop and communicate guidance for FAM engagement
   protocols and legal authorities when VIPR teams encounter potential or actual criminal
   activity in mass transit environments.

   Recommendation #5: Provide enhanced guidance regarding riskͲbased deployment
   planning and increase access to risk assessment information that VIPR teams can use to
   prioritize deployments with partners and stakeholders.

   Recommendation #6: Designate VIPR Program decisionͲmaking authority to one TSA
   headquarters office to ensure that overall field operations, program activity and
   engagement, and oversight are coordinated effectively.

   Recommendation #7: Ensure coordination and engagement between local VIPR team
   leaders and the Playbook Manager, and ensure that airport law enforcement VIPR
   operations are integrated with Security Playbook operations.

   Recommendation #8: ReͲdistribute existing VIPR FAM position allocations among field
   offices according to highͲthreat urban areas, critical infrastructure, and mass transit
   networks using a riskͲbased methodology.


www.oig.dhs.gov                               72                                     OIG-12-103
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Recommendation #9: Develop a process to increase oversight regarding the availability
   and involvement of OSO personnel and assets to OLE/FAMͲled VIPR teams.

   Recommendation #10: Extend OLE/FAMS and OSO VIPR assignments for more than 1
   year.

   Recommendation #11: Refine Standard Operating Procedures to reflect appropriate
   roles and responsibilities for TSIs during VIPR operations.

   Recommendation #12: Evaluate the realignment to determine any potential adverse
   effects on TSA’s ability to ensure that VIPR teams have sufficient access to law
   enforcement canine teams.

   Recommendation #13: Develop and implement a TSAͲwide VIPR training program, to
   include rail safety and groundͲbased incident response training scenarios.

   Recommendation #14: Evaluate exercises that could incorporate VIPR teams, law
   enforcement partners and stakeholders, and determine the feasibility of conducting
   joint exercises in all VIPR Program field offices and areas of responsibility.

   Recommendation #15: Ensure that screening equipment used for VIPR operations is
   calibrated for the mass transit environment.

   Recommendation #16: Conduct an evaluation to determine what safety and protective
   gear should be provided to OSO assets when participating on VIPR operations.




www.oig.dhs.gov                              73                                    OIG-12-103
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


   Appendix C
   Management Comments to the Draft Report




www.oig.dhs.gov                  74                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 75                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 76                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 77                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 78                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 79                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 80                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 81                    OIG-12-103
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 82                    OIG-12-103
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


   Appendix D
   Distribution of Priority Transportation Venues and Entities by
   VIPR Team Areas of Responsibility




www.oig.dhs.gov                     83                         OIG-12-103
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Marcia Moxey Hodges, Chief Inspector
   Angela Garvin, Team Lead Inspector
   Katherine Roberts, Senior Inspector
   Kimberley Lake de Pulla, Senior Inspector
   Morgan Ferguson, Inspector




www.oig.dhs.gov                                84                 OIG-12-103
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary, National Protection and Programs Directorate
   Commandant, U.S. Coast Guard
   Director, U.S. Secret Service
   Director of Local Affairs, Office of Intergovernmental Affairs
   Director, Domestic Nuclear Detection Office
   TSA Audit Liaison
   NPPD Audit Liaison
   USCG Audit Liaison
   U.S. Secret Service Audit Liaison
   DNDO Audit Liaison

   U.S. Department of Transportation

   Federal Railroad Administration
   Federal Transit Administration
   Federal Motor Carrier Safety Administration
   GAO/OIG Liaison




www.oig.dhs.gov                              85                     OIG-12-103
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             86                             OIG-12-103
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
